<html>
<title> - THE FUTURE NUCLEAR POSTURE OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 114-585]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-585

            THE FUTURE NUCLEAR POSTURE OF THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 27, 2016

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











        Available via the World Wide Web: http://www.fdsys.gov/


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-800 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                    JEFF SESSIONS, Alabama, Chairman

JAMES M. INHOFE, Oklahoma            JOE DONNELLY, Indiana
DEB FISCHER, Nebraska                BILL NELSON, Florida
MIKE LEE, Utah                       JOE MANCHIN III, West Virginia
LINDSEY GRAHAM, South Carolina       ANGUS S. KING, JR., Maine
TED CRUZ, Texas                      MARTIN HEINRICH, New Mexico

                                  (ii)

  













                            C O N T E N T S

                               __________

                            january 27, 2016

                                                                   Page

The Future Nuclear Posture of the United States..................     1

Harvey, John R., Former Principal Deputy Assistant Secretary of 
  Defense for Nuclear, Chemical, and Biological Defense Programs.     3
Payne, Keith B., President and Co-Founder, National Institute for 
  Public Policy..................................................    10
Roberts, Brad H., Director, Center for Global Security Research, 
  Lawrence Livermore National Laboratory.........................    13
Miller, Franklin C., Principal, The Scowcroft Group..............    18

                                 (iii)

 
            THE FUTURE NUCLEAR POSTURE OF THE UNITED STATES

                              ----------                              


                      WEDNESDAY, JANUARY 27, 2016

                           U.S. Senate,    
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Fischer, 
Donnelly, and King.
    Other Senators present: Cotton and Sullivan.

           OPENING STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. The meeting will come to order.
    Senator Donnelly is on the way, and I think we'll just 
proceed with some preliminaries.
    I thank our colleagues for coming. And it's an opportunity 
today to examine the future of America's nuclear force posture 
with a rock-star panel, I've got to say. These are four 
individuals who have served different administrations, who have 
been deeply involved in this issue, have thought about them, 
written about it, and, I think, will be a real asset to our 
committee as we go forward.
    So, we've asked the witnesses to provide an assessment of 
the continuities and changes in the U.S. nuclear posture, with 
an eye toward what we've gotten right and what policies or 
assumptions have not been borne out by recent events.
    As I believe Mr. Miller just noted as we talked about the 
grimness of this subject, it's--for 60 years, there's a lot 
that can be said as to how this policy of nuclear deterrence 
has helped protect the peace.
    More important, we've asked for the panel's thoughts on how 
the current nuclear posture should be changed to address the 
strategic environment as it may evolve over the next 25 years. 
In other words, what should be the major considerations and 
content of any nuclear review to be conducted by the next 
President?
    From my perspective, there have been at least three 
constants in U.S. nuclear policy across Republican and 
Democratic administrations over the past quarter century. The 
first constant has been the enduring necessity for a triad of 
land, air, and sea-based nuclear forces to deter threats to 
vital U.S. interests and to assure allies of U.S. security 
commitments.
    Second--and this is often forgotten by anti-nuclear 
groups--there has been a shared objective to reduce the U.S. 
nuclear stockpile from Cold War highs to the lowest number of 
nuclear weapons consistent with maintaining U.S. nuclear 
deterrence and assurance objectives.
    Third constant. Unfortunately, there has been a consistent 
decline in leadership focus and funding for America's nuclear 
forces and the nuclear laboratory and production complex, 
perhaps in the misguided belief that, with the end of the Cold 
War, nuclear deterrence was no longer a national priority. And 
I think we've observed that our unilateral reductions have not 
resulted in world reductions of nuclear weapons, but, in fact, 
more proliferation.
    Congress has demonstrated over the last few years a strong 
commitment to fund the nuclear modernization plans of the Obama 
administration. Now, that's a commitment that the President has 
made, and we need to make sure it goes forward. It's probably a 
minimum action, but it's--essentially does, I think, where--
what we have to do.
    Each leg of the nuclear triad is being replaced, hopefully 
before this Cold War-era force reaches the end of its service 
life. And a very large sum of money is programmed to refurbish 
nuclear warheads and bombs that have far outlasted their 
intended lifetimes and to replace nuclear handling facilities, 
some of which date back to the dawn of the Nuclear Age. And 
indeed, however, the sums of money spent on our nuclear 
warheads and our triad is relatively small in light of the 
entire defense budget.
    So, I thank our committee members from being here.
    Senator Cotton, we're glad to have you. You're going to 
find that you've got four of the truly--true experts on this 
subject before us today.
    Senator Cotton. I do thank you.
    Senator Sessions. So, we'll proceed with a 5- to 7-minute 
opening statement by each of our witnesses, in this order:
    Dr. John Harvey is a former Deputy Secretary of Defense for 
Nuclear and Missile Defense Policy in the Clinton 
administration, and former Principal Deputy to the Assistant to 
the Secretary of Defense for Nuclear, Chemical, and Biological 
Weapons in the Obama administration, and former Director of 
Policy Planning Staff of the NNSA [National Nuclear Security 
Administration]. He also had contributed valuably to our 
discussions about improving our laboratories and our 
modernization.
    Dr. Keith Payne, the CEO and President of the National 
Institute for Public Policy, formerly Deputy Assistant 
Secretary of Defense in the Bush administration, helped write 
the 2001 Department of Defense Nuclear Posture Review in the 
Bush administration, and was a key member of the Perry-
Schlesinger Report in, what, 2009, that was--really helped us 
reach a bipartisan consensus on nuclear posture.
    Dr. Brad Roberts is the Director, Center for Global 
Security Research, Lawrence Livermore National Laboratory, 
former Deputy Assistant Secretary of Defense for Nuclear and 
Missile Defense Policy in the Obama administration. I believe 
you've got your book out now. Is it--"Care for"--"The Case for 
Nuclear Weapons in the 21st Century.'' It's an important 
subject. Thank you for that.
    Mr. Frank Miller, the Principal of the Scowcroft Group, 
former Senior Director for Defense Policy and Arms Control for 
the National Security Council, 2001 through 2005, and senior 
civilian defense official responsible for nuclear matters in 
the Bush and Clinton administrations.
    So, we do have a good panel, indeed.
    Senator Donnelly, I just did a brief opening statement, and 
I would yield to you for your opening comments at this time, 
before we hear from the panel.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank our witnesses for agreeing to appear today 
before the committee. Over many years, we've sought your 
counsel on our Nation's nuclear deterrent. Today is no 
different.
    I also understand a number of you have worked side by side 
with a prestigious Hoosier who is also my good friend, Jonathan 
George. So, he sends his best wishes.
    At the beginning of every administration, there are a host 
of pressing national security issues that must be addressed, 
but, as Secretary Harold Brown once observed, then there is 
also the question of nuclear weapons. No other issue garners as 
much debate and thought on their force structure and possible 
use. And rightly so.
    Today, you have the opportunity to once again give this 
committee advice on a topic that forms the foundation of our 
national security and that of our allies. This is a time for us 
to learn and reflect on a topic that is at the very core of our 
national security debate.
    Again, I'd like to thank Senator Sessions for arranging 
this hearing. I look forward to another productive year of work 
in this subcommittee, where we have built such a strong 
bipartisan consensus on our nuclear posture, nonproliferation 
efforts, and missile defense.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    All right. Dr. Harvey?

STATEMENT OF JOHN R. HARVEY, FORMER PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL 
                        DEFENSE PROGRAMS

    Dr. Harvey. Chairman Sessions, Ranking Member Donnelly, 
members of the committee, thanks for the opportunity to testify 
before you today about the future nuclear posture of the United 
States.
    My statement today reflects almost an entire career working 
on nuclear deterrence. Most recently, from 2009 to 2013, I was 
Principal Deputy Assistant Secretary under Ash Carter, then the 
Under Secretary. I was his go-to person for the 2010 Nuclear 
Posture Review, and, more generally, for oversight of the 
Nuclear Stockpile and for programs to modernize delivery 
platforms and nuclear command and control.
    I request that my written statement be entered in the 
record. It----
    Senator Sessions. We will make it part of the record.
    Dr. Harvey. Its basic points are as follows:
    In recent years, our government has made great progress in 
advancing a comprehensive strategy to sustain and modernize 
U.S. nuclear forces. The President has sought significant 
increases in modernization programs. In very large part, 
Congress has funded these programs and, as it should, has held 
the administration accountable for sustained progress. A 
bipartisan consensus on modernization, although fragile and 
very narrowly focused, has emerged, and my written statement 
speaks about how this has come to be.
    Job number one now, however, is to preserve this consensus 
and, if possible, bolster it in the face of two daunting 
challenges. First, in a decades-long modernization effort, we 
begin the climb up the bow wave of needed investment that peaks 
in the late 2020s. Second, and most importantly, is the 
challenge of sustaining momentum and consensus in the 
transition over the coming year to the next President. The 
nature and scope of the 2017 Nuclear Posture Review will be a 
factor in meeting these challenges. Continued close attention 
and bipartisan support from Congress will be essential.
    In light of the evolving global security environment, the 
next President will likely direct a review of nuclear posture. 
Congress has three options to consider in seeking to shape that 
review. First, it could take no action. That is, leave it up to 
the direction of the--discretion of the next President. Second, 
it could direct the next administration to conduct a nuclear 
review, with specified terms of reference, and deliver a report 
by a date certain on the way ahead. Third, it could establish a 
new bipartisan commission to inform the nuclear review--
independent commission--to inform the nuclear review of the 
next President.
    In considering options, the three previous NPRs [Nuclear 
Posture Reviews], those concluded by Clinton in 1994, Bush in 
2001, and Obama in 2010, reflect much more continuity than 
change. All concluded that a triad of strategic forces, of 
nuclear forces, and Europe-basing of U.S. nuclear bombs carried 
by NATO dual-capable aircraft, were essential to both strategic 
and extended deterrence. All concluded that a hedge capability 
was needed to respond to unanticipated technical problems or to 
adverse geopolitical changes requiring force augmentation. All 
agreed that deterrence could not be based solely on the 
existence of nuclear forces. Rather, it depends on the ability 
of forces to hold at risk assets most valued by an adversary. 
And finally, this meant that force capabilities mattered, and 
all understood that these capabilities might need to be 
adjusted as adversary target sets and employment strategies 
evolved.
    Given this continuity in policy, given the current, if 
fragile, consensus on modernization, and given the successful 
bipartisan review carried out by the Perry-Schlesinger Panel in 
2009, a new bipartisan commission is not needed, nor would its 
work be timely. Rather, the next President should update the 
conclusions and recommendations of the 2010 Nuclear Posture 
Review, based on the global security environment as it has 
evolved since that review.
    The committee asked for views of major considerations for 
the next Nuclear Posture Review. Very importantly, that review 
should open the aperture on issues that the Obama team has put 
to bed, based on its assessment of the future security 
environment. It must also manage the downside risk that certain 
recommendations could rupture existing consensus on today's 
modernization program.
    Regarding Russia, my colleague, Keith Payne, is going to go 
into more detail about Russia, but let me make just one brief 
point. Russia has an active strategic modernization program 
underway. More of a concern than Russia's modernization 
program, however, is its evolving nuclear strategy. If Russia 
really believes that it could escalate its way to victory, say 
in restoring the Baltics to Russian rule, then it must be set 
straight. No conceivable advantage and incalculable downside 
risks would accrue from any nuclear use against NATO. The next 
NPR should determine whether existing U.S. declaratory policy 
in this regard needs to be refined or clarified.
    I highlight other major issues for review and resolution. 
How many ICBMs [intercontinental ballistic missiles] should we 
deploy at how many bases to meet the security needs while 
maintaining a robust cadre and career path for ICBM operations? 
Can ballistic missile modernization be leveraged to reduce 
costs via a smart approach to common ICBM and SLBM [Submarine-
launched ballistic missiles] components? Is additional 
modernization needed to convey a critical message? That is, 
U.S. nuclear forces cannot be neutralized by attacks, whether 
kinetic or cyber, on the nuclear command-and-control system. In 
light Asian security developments and the continuing challenge 
of assuring allies, should we seek allied support and 
concurrence on a plan to demonstrate the ability to deploy U.S. 
nuclear weapons and dual-capable aircraft to bases in the 
Republic of Korea and Japan?
    There are two looming questions regarding stockpile 
modernization. First, do we need nuclear warheads with new or 
different military capabilities? Second, do we need to retain 
capabilities to develop and produce such warheads, if required? 
My short answer to the first question is, ``Maybe.'' To the 
second, it is, ``Most assuredly,'' and we must do more to 
achieve this objective.
    My written statement elaborates on these issues and raises 
a few others.
    Mr. Chairman, some NPR issues will be controversial and, 
thus, pose a risk to a continuing consensus on modernization. 
That does not mean the next NPR should not study them. Rather, 
all of the security implications of alternative courses of 
action must be vetted before proceeding carefully and with 
transparency to any recommended changes in posture. This can 
best be achieved with a Nuclear Posture Review that integrates 
all elements of nuclear security, not just force posture; 
embraces all agencies with national security equities, as well 
as allies; and communicates clearly with Congress and the 
American public.
    Thank you very much.
    [The prepared statement of Dr. Harvey follows:]

                Prepared Statement by Dr. John R. Harvey
                              Introduction
    Chairman Sessions, Ranking Member Donnelly, and members of the 
Subcommittee: I am pleased to testify before you today along with 
colleagues and friends--all of whom reflect the highest standards of 
public service--about the future nuclear posture of the United States.
    My statement today reflects 38 years of experience working nuclear 
weapons and national security issues, first at Lawrence Livermore 
National Laboratory, then at Stanford University's Center for 
International Security and Arms Control and in senior positions in the 
Departments of Defense (twice) and Energy. From 2009-2013, I served as 
Principal Deputy Assistant Secretary of Defense for Nuclear, Chemical, 
and Biological Defense Programs, initially under Ash Carter then 
serving as Undersecretary for Acquisition, Technology and Logistics. I 
was his ``go to'' person for the 2010 Nuclear Posture Review as well as 
for interactions with the Department of Energy on all aspects of the 
nuclear stockpile. I provided oversight to DOD acquisition programs to 
sustain and modernize nuclear delivery systems and systems for their 
command and control. Today, I consult with several organizations on 
many of these same issues. My statement today, however, reflects my 
views and not necessarily those of any organization to which I consult.
    priority one--bolstering the fragile consensus on modernization
    It is worthwhile to take a step back and recall the state of the 
U.S. nuclear posture in 2009 when President Obama took office. The 
prospects were grim:
    <bullet>  Funding was insufficient to sustain the R&D base needed 
for long-term certification of stockpile safety and reliability and, at 
the same time, recapitalize an aging infrastructure.
    <bullet>  Basic nuclear weapons design, engineering, and production 
skills and capabilities were increasingly at risk because they were not 
being exercised.
    <bullet>  Ongoing warhead life extension activities were under 
funded and constrained in their ability to improve warhead safety, 
security, and reliability.
    <bullet>  Operations at warhead component production facilities 
were at increased risk of safety shutdown.
    <bullet>  DOD had yet to step up to its own nuclear modernization 
needs.
    <bullet>  There was little consensus within Congress, or between 
the administration and Congress, on the role of nuclear weapons in our 
national security strategy.
    <bullet>  Many in Congress were concerned that a comprehensive 
approach to nuclear security had not been clearly articulated, and they 
were right!
    Today, the tide has shifted. Specifically:
    <bullet>  The 2010 NPR was built on a foundation of bipartisan 
support; in large part, it adopted the recommendations of the 
Bipartisan Congressional Commission on the Strategic Posture of the 
United States (aka ``the Perry-Schlesinger commission'').
    <bullet>  It was achieved with unprecedented interagency 
cooperation and White House involvement, and defined an integrated/
balanced strategy for reducing nuclear dangers.
    <bullet>  Very importantly, the strategy strongly linked our 
nuclear deterrent to other elements of nuclear security including arms 
control, nonproliferation, threat reduction, and nuclear 
counterterrorism.
    <bullet>  High level support across his administration for 
increased investments in DOE's nuclear weapons programs and DOD's 
nuclear delivery systems enabled the President to conclude, and 
convinced the Senate to ratify, the New START Treaty.
    <bullet>  Recent President's budget requests have further increased 
investment for modernization. To a very large degree, Congress is 
funding these programs and, as it should, is holding the administration 
accountable for sustained progress.
    Not everything is ``fixed,'' but there is a fragile consensus in 
place regarding the future nuclear posture and a plan (that changes a 
bit every year) to achieve it.
    To what do I attribute this remarkable demonstration of 
bipartisanship in a political environment that is as corrosive as many 
of us can remember? I think the answer is two-fold. First, the actions 
of Vladimir Putin, in essence to reestablish the Soviet Union, have 
made it clear to most Americans that optimistic assumptions about the 
future global security environment are not coming to pass. Recent 
Russian behavior has also muted the voices of those who sought to 
hijack, and misrepresent, the President's Prague agenda in calling for 
unilateral reductions to small numbers now.
    Perhaps more importantly, is the commitment of this Committee and 
its staff (both minority and majority) working together, and together 
with their House counterparts and with colleagues both inside and 
outside the Obama administration to do what's right for our nation's 
security. I must add that vocal support for the President's 
modernization program from my colleague at the table, Keith Payne, 
taken at some personal risk, has helped to solidify support of other 
conservatives not inclined in general to agree with the President.
    This decades-long modernization program for all elements of the 
nation's deterrent--the nuclear stockpile and supporting 
infrastructure, nuclear delivery platforms, and command and control 
systems that link nuclear forces with Presidential authority--faces 
several challenges. The next few years are critical as we climb the so-
called modernization ``bow wave'' of needed investment that peaks in 
the mid-2020's. The greatest challenge, however, is to bolster 
consensus, and sustain momentum, in the transition over the next year 
to a new administration. Continued close attention and bipartisan 
support from Congress will be essential.
                    the 2017 nuclear posture review
    Given changes in the security environment since the 2010 NPR, it is 
almost certain that the next President will direct a review of the 
current posture, policies, and programs for U.S. nuclear forces and, 
very likely, will do this whether or not Congress passes legislation 
requiring it. What should Congress do? There are three primary options 
to consider:
    <bullet>  Take no action--leave to the discretion of the next 
President.
    <bullet>  Direct the next administration to conduct a review of 
U.S. nuclear posture and deliver, by a date certain, an unclassified 
report (with classified annex, if needed) on the way ahead.
    <bullet>  Establish a new bipartisan commission to inform the 
nuclear review of the next President.
    In considering options, it is noteworthy that previous NPRs--those 
concluded by Clinton in 1994, by Bush in 2001, and by Obama in 2010 
(informed by Perry-Schlesinger)--reflect much more continuity than 
change. After evaluating alternatives, all concluded that a strategic 
triad of nuclear forces--consisting of land- and sea-based ballistic 
missiles, and heavy bombers--and forward basing of B61 nuclear bombs 
carried by NATO dual capable aircraft were essential to both strategic 
and extended deterrence. All concluded that a hedge capability, held in 
reserve, was needed to respond to unanticipated technical problems with 
a warhead or delivery system, or to adverse geopolitical changes that 
required augmentation of deployed forces. All agreed that it is 
insufficient to base deterrence solely on the existence of some level 
of nuclear forces; rather, it depends on the ability of forces to hold 
at risk assets and installations most highly valued by an adversary. 
Thus, force capabilities mattered and all understood that capabilities 
might need to be adjusted as adversary target sets and employment 
strategies evolved.
    Given the trend of continuity, given the current, if fragile, 
consensus on modernization and given the intense bipartisan review that 
was carried out by Perry-Schlesinger in 2008-09, a new bipartisan 
commission is not needed at this time. Even if the FY17 NDAA were to 
establish one, and assuming it became law in late Fall 2016, it would 
take at least another 18-24 months to get the members appointed, the 
commission up and running, and recommendations developed. The 
commission would likely be carrying out its work in parallel with the 
next administration's nuclear review and would thus not be timely.
    Rather, the next administration should review and update the 
conclusions and recommendations of the 2010 NPR based on the global 
security environment as it has evolved since that review was completed. 
This review would benefit from the analyses, assessments, and 
contributions of experts in the think tank community. Examples include 
work of the National Institute of Public Policy in informing the 2001 
NPR, and recent work (i.e. Project Atom) at the Center for Strategic 
and International Studies addressing options for the future U.S. 
nuclear posture.
                  major considerations of the next npr
    The Committee has requested that we provide views of ``what should 
be the major considerations and content of the next NPR.'' Most 
importantly, the next NPR should ``open the aperture'' on issues and 
activities that the Obama administration had ``put to bed'' based on 
its assessment of the future global security environment. In doing so, 
we must manage the downside risk that certain recommendations could 
rupture existing consensus on today's modernization program.
Russia
    Deterring a potentially hostile Russia remains the primary focus of 
U.S. nuclear forces. Mr. Putin believes he has a ``responsibility to 
protect'' ethnic Russians wherever they reside. He has used this 
argument to intervene in the internal affairs of Moldova, Georgia and 
now Ukraine including the illegal annexation of Crimea. Putin's modus 
operandi in Ukraine has not been an all-out armored assault as the 
Soviets did in Hungary in 1956 and Czechoslovakia in 1968. Rather, he 
seeks to achieve his political ends by introducing covert forces 
employing ``gray ops'' (aka hybrid warfare) to incite, or amplify, 
instabilities and insurgencies among fringe elements in Eastern 
Ukraine. He has also given increased prominence to nuclear forces, and 
to brandishing these forces in seeking to intimidate his perceived 
adversaries.
    What do the events in Ukraine mean for NATO members such as Latvia 
and Estonia with sizable ethnic Russian populations? Would NATO even 
recognize that a member state was under such covert assault? How would 
other members respond under the Article V commitment to defend that 
member? How should these events be reflected in U.S. and NATO security 
posture and planning? What does all this mean for the U.S. nuclear 
posture. These questions are at the top of the list for the next NPR. 
Ten years ago, few would have imagined the events of the past two years 
in Ukraine. Today, it must inform our thinking about future conflict.
    Russia has an active strategic modernization program underway. Some 
of it, like ours, involves upgrading older systems at the end of their 
service lives. Other modernization involves potential qualitative 
advancements that we must monitor closely so that we are not surprised 
and, if required, can make a timely (and possibly asymmetric) response. 
That said, we must be careful not to convey that U.S. modernization is 
being driven by Russia's. We must modernize whether or not Russia 
modernizes if we are to retain basic components of an effective Triad.
    More so than its modernization program, I am concerned about 
Russia's evolving nuclear strategy. In short, Russia seems to embrace 
the threat of limited nuclear use to deescalate a conflict, for 
example, to solidify near-term gains against a conventionally superior 
adversary. Does Russia really believe that it could escalate its way to 
victory say in restoring the Baltics to Russian rule? If it does, then 
we must set Russia straight that no conceivable advantage at all could 
ever accrue from nuclear use against NATO. The next NPR should 
determine, among other things, whether existing U.S. declaratory policy 
needs to be refined or clarified.
Nuclear Delivery Systems and Command and Control
    Several issues involving nuclear delivery systems and nuclear 
command and control (NC2) are timely for consideration in a new NPR:
    <bullet>  How many ICBMs should we deploy (at how many bases) to 
meet security needs while maintaining a robust cadre and career path 
for ICBM operations?
    <bullet>  How best can ICBM and SLBM life extension program be 
leveraged to reduce costs through a smart approach to commonality 
(e.g., in solid rocket motors, firing systems, guidance and control, 
and ground components), recognizing that these two systems experience 
different operating environments?
    <bullet>  What additional modernization is needed to convey 
credibly an important message for deterrence; that is, U.S. nuclear 
forces cannot be neutralized by attacks, whether kinetic or cyber, on 
the NC2 system?
    <bullet>  In light of security developments in East Asia, and the 
continuing challenge of assuring allies of U.S. security commitments, 
is it time to revisit options to:
    <bullet>  Establish and exercise, with allied concurrence and 
support, a capability to deploy U.S. dual capable aircraft, and nuclear 
weapons, to bases in Japan and the ROK?
    <bullet>  Restore nuclear capability to carrier air via the F-35?
    <bullet>  Develop and deploy on attack submarines a modern, 
nuclear, land-attack SLCM?
Are New Military Capabilities Needed?
    Two looming questions involving stockpile modernization are worthy 
of debate and discussion:
    <bullet>  Do we need nuclear warheads with new or different 
military capabilities?
    <bullet>  Do we need to retain capabilities to develop and produce 
such warheads?
    My short answers to these question are, respectively, ``maybe'' and 
``most assuredly.'' It is timely to review needed military capabilities 
in light of the evolution of the global security environment including 
Russia's actions upsetting the emerging post Cold War international 
order and increased focus on the challenge of deterring escalation in a 
conventional conflict between nuclear-armed states. At least three 
options may be seen as pertinent:
    <bullet>  Lower yield options for ICBM and SLBM warheads, at least 
until a viable prompt global conventional strike capability is 
achieved.
    <bullet>  Capabilities to hold at risk hardened, underground 
installations.
    <bullet>  Warheads that provide extended service life, greater 
margin for enhanced reliability, modern safety and security features, 
and ease and rapidity of manufacture.
    These ideas are not new and I do not think it urgent to develop and 
field such warheads. That said, consideration of these and other such 
options should be on the agenda of the next NPR.
    The second question addresses the challenge of maintaining 
capabilities of weapons scientists and engineers to develop and field 
modern warheads if required by a future President. To maintain such 
readiness, designers and engineers must be provided opportunities to 
exercise critical capabilities with challenging design problems.
    Over the past decade and more, however, challenging warhead design 
and development opportunities have been few and far between. Most work 
today involves warhead life extension programs (LEPs) that do not 
present sufficiently complex design and development challenges to fully 
exercise skills. The B61-12 LEP offers challenges to the Sandia teams 
developing nonnuclear warhead components--e.g., a modern warhead 
electrical system--but not to the design and engineering teams at Los 
Alamos. Indeed, the bomb's ``physics package'' (the warhead primary, 
secondary, inter-stage and radiation case) is essentially the same as 
the original bomb.
    Today, there are no requirements for new military capabilities. How 
then can critical skills be exercised? The LEP for an interoperable 
ICBM/SLBM warhead, called IW1, when compared to today's refurbishment 
LEPs, presents a formidable challenge for training young designers. The 
follow-on interoperable warhead (IW2) presents an even greater 
challenge. Both programs, however, were delayed by five years in recent 
budgets and are late to need for retaining critical capabilities. The 
next NPR should review whether to accelerate the IW1 and IW2 LEPs.
    Prototyping is another option to exercise the entire design, 
development and manufacturing enterprise. Here, a modern warhead design 
would be taken from initial concept through prototype development and 
flight testing, up to a point where a few are built but not fielded.
    The FY15 and FY16 NDAAs have advanced legislation to facilitate 
retention of capabilities through expanded use of prototype development 
at the national laboratories, and by establishing a nuclear weapons 
design responsiveness program as a key component of stockpile 
stewardship. Absent these initiatives, and possibly within a decade, 
there is serious risk that the nuclear weapons enterprise will be 
unable to provide a timely response to unanticipated contingencies. 
Establishing affordable programs to exploit these opportunities is a 
challenge for the next NPR.
Nuclear Stockpile and Supporting Infrastructure
    Several other issues involving the nuclear stockpile and supporting 
infrastructure should be addressed with high priority in the next NPR:
    Early retirement of the B83 bomb:  U.S. hedge strategy seeks to 
provide two separate, genetically diverse warheads for each leg of the 
Triad. Sufficient numbers of one warhead are held in reserve to provide 
backup in the event of an unanticipated technical failure of the other. 
There are two U.S. gravity bombs--the B61, undergoing life extension, 
and the B83. Current plans are to retire the B83 well before the end of 
its service life, and possibly before sufficient experience is gained 
with the B61-12 LEP to fully assess any ``birth defects'', in part to 
avoid a relatively small investment in B83 warhead surveillance. In 
light of the increased importance of extended deterrence in our 
security posture, it makes sense to revisit that decision.
    W76 backup:  A major goal of the ``3+2 strategy'' for stockpile 
modernization is to provide a ``backup'' for the W76 SLBM warhead--the 
most prevalent warhead in the future force--in the event of 
unanticipated technical failure. This was to be achieved by fielding 
interoperable ICBM/SLBM warheads. That specific approach has been 
called into question, in part by the more urgent need to extend the 
life of our other SLBM warhead--the W88. In any case, there are 
insufficient W88s to back up the W76. A new approach is needed to hedge 
W76 failure.
    Recapitalizing uranium and plutonium manufacturing infrastructure:  
A responsive nuclear infrastructure to repair or rebuild warheads would 
relieve the need to maintain a large stockpile of reserve warheads to 
back up the deployed force. We have not had one since the early 1990s. 
Progress has been made recently on what seems to be affordable 
approaches to recapitalization. But the capability being provided, 
particularly regarding plutonium pit manufacture, may not be in time to 
meet the needs of future LEPs. It is time to resolve this problem.
                               conclusion
    Certain issues will be highly controversial and thus pose a risk to 
maintaining a continued consensus on modernization. That does not mean 
that the next NPR should not study them. Rather, all of the security 
implications of alternative courses of action must be understood before 
moving forward carefully, and with transparency, to any recommended 
changes in U.S. nuclear posture. This can best be achieved with an NPR 
that integrates all elements of nuclear security, not just force 
posture, embraces all agencies with national security equities as well 
as allies, and communicates clearly with Congress and the American 
public.
    Tool completed successfully


    Senator Sessions. Thank you very much.
    Dr. Payne.

STATEMENT OF KEITH B. PAYNE, PRESIDENT AND CO-FOUNDER, NATIONAL 
                  INSTITUTE FOR PUBLIC POLICY

    Dr. Payne. Thank you. I greatly appreciate the honor of 
participating in today's hearings. I thank Chairman Sessions 
and Ranking Member Donnelly for the opportunity.
    I'd like to start by noting that there has been an 
overwhelming bipartisan consensus on U.S. nuclear policies for 
the last five decades. The debates that we have had typically 
have not been over fundamental issues. For example, there is a 
longstanding agreement that two primary roles for U.S. nuclear 
weapons are to deter enemies and to assure allies. And from a 
broad agreement on those two goals follow many points of 
consensus about what we say and what we do with regard to 
nuclear capabilities.
    For example, because there are a variety of nuclear attacks 
that must be deterred, and no one knows the minimum U.S. 
capabilities necessary to deter, it is a longstanding 
bipartisan consensus in support of hedging, flexibility, 
diversity, and overlapping U.S. deterrence capabilities. Every 
Republican and Democratic administration for five decades, 
including the Obama administration, ultimately has understood 
the value of hedging flexibility, diversity, and overlapping 
U.S. deterrence capabilities, and ultimately rejected calls for 
a minimalist approach to deterrence and deterrence 
requirements. From that consensus then follows our longstanding 
support and broad agreement in favor of sustaining a nuclear 
triad of bombers, land-based, and sea-based missiles.
    Similarly, from the agreed fundamental nuclear policy goal 
of assuring allies follows the continuing consensus behind 
sustaining some U.S. nuclear forces that are forward-deployed, 
such as our DCA [Dual-Capable Aircraft] in Europe, or forward-
deployable, depending on local conditions and history.
    These points of fundamental consensus remain with us today. 
There are, nevertheless, some recent and unprecedented 
developments that justify, I believe, a new DOD [Department of 
Defense] review of U.S. deterrence policy and requirements 
since the earlier Nuclear Posture Reviews. For example, we need 
to recognize that the optimistic post-Cold-War expectations 
about Russia that dominated earlier thinking do not reflect 
contemporary realities. And we should review U.S. policies 
accordingly. To be specific, Russian President Putin's 
strategic vision for Russia is highly destabilizing. It 
includes the reestablishment of Russian dominance of former 
Soviet territories via Russification and the use of force, if 
needed, if not by preference. Most disturbing in this regard is 
that Moscow seeks to prevent any significant collective Western 
military opposition by threatening local nuclear first-use. 
This is not the Cold War notion of a mutual balance of terror. 
It is a fundamentally new coercive use of nuclear weapons and 
threats not really accounted for in earlier NPRs. Russian 
military officials speak openly of preemptive use of nuclear 
weapons in a conventional war. And, according to some open 
Russian sources, Russia has pursued specialized low-yield 
nuclear weapons to make its first-use threats credible and its 
nuclear weapons locally employable. If Russia is planning--if 
Russia's planning now follows this apparent policy--and I have 
no reason to believe that it doesn't--it tells me that U.S. and 
NATO deterrence policy is now failing in a fundamental way, and 
the consequences of that failure could be catastrophic. 
Consequently, the unprecedented questions to be considered in a 
new DOD review is how the alliance can effectively deter this 
combined arms threat to our allies and friends. What deterrence 
concepts may be applicable in this case, in this new world? 
What are the corresponding metrics for Western conventional and 
nuclear force adequacy? And what now should be NATO and U.S. 
declaratory policies with regard to deterrence?
    We also need to consider the prioritization of our nuclear 
policy goals. The 2010 NPR explicitly placed nonproliferation 
as the top goal and said that reducing the number and reliance 
on U.S. nuclear weapons was a key to realizing that top goal. 
Yet, at this point, the goal of nonproliferation should no 
longer be used as a policy rationale to further reduce U.S. 
nuclear deterrence capabilities. After two decades of deep U.S. 
nuclear reductions and focusing elsewhere, and the emergence of 
new nuclear--unprecedented nuclear threats, I believe we need 
to again elevate the priority of the U.S. deterrence mission 
and related capabilities. Its subordination has had some 
negative consequences.
    Finally, since the end of the Cold War, the study of Russia 
and the Russian language has declined dramatically in our 
educational system, in general. And the U.S. intelligence 
community reportedly has largely divested itself of the 
capacity to understand Russian nuclear weapons policy, 
programs, and war planning. That is a dangerous inadequacy. 
Deterrence strategies depend, fundamentally, on our 
understanding of the adversary's thinking and planning and 
capabilities. We need both to better understand and to be able 
to explain the realities of Russia's goal to change the 
international order under the cover of nuclear first-use 
threats. If we hope to deter effectively, we must consider 
again the intellectual resources necessary to perform that 
vital task.
    There are many other additional points that could be made 
on this subject, but, in deference to the time limit, I'll stop 
there and thank you for giving me the opportunity to express my 
views.
    [The prepared statement of Dr. Payne follows:]

                Prepared Statement by Dr. Keith B. Payne
    I greatly appreciate the honor of participating in today's hearing.
    I would like to start by noting that there has been a near-
overwhelming bipartisan consensus on U.S. nuclear policies over the 
past five decades. Despite the occasional flare ups, our nuclear 
debates typically have not been over fundamentals.
    For example, there is a long-standing agreement that two primary 
roles for U.S. nuclear weapons are to deter enemies and to help assure 
our allies of their security.
    From the broad agreement on these two goals follow many points of 
consensus regarding what we should do and say about our nuclear 
capabilities. For example, because a variety of plausible nuclear 
attacks must be deterred, and no one knows the minimum U.S. 
capabilities necessary and credible to deter them, there is a long-
standing bipartisan consensus in support of hedging, flexibility, 
diversity and overlapping U.S. deterrence capabilities.
    Every Republican and Democratic administration for five decades, 
including the Obama administration, ultimately has understood the value 
of these attributes and ultimately rejected a minimalist deterrence as 
inadequate and incredible. From this consensus has followed our 
longstanding consensus in favor of sustaining a diverse nuclear triad 
of bombers, land-based and sea-based missiles.
    Similarly, from the fundamental nuclear policy goal of assuring 
allies follows the continuing consensus behind sustaining some U.S. 
nuclear forces that are forward deployed, such as our DCA in Europe, or 
forward-deployable--depending on local conditions and history.
    These points of fundamental consensus remain with us today.
    There are, nevertheless, some recent and unprecedented developments 
that justify a contemporary DOD review of U.S. deterrence policy and 
requirements.
    For example, we need to recognize that the optimistic post-Cold War 
expectations about Russia that dominated earlier thinking do not 
reflect contemporary reality, and review United States policies 
accordingly: to be specific, the Putin regime's strategic vision for 
Russia is highly revisionist and destabilizing. It includes the 
reestablishment of Russian dominance of the near abroad via 
``Russification'' and the use of force if needed. Most disturbing in 
this regard is that Moscow seeks to prevent any significant collective 
Western military opposition to its offensive military operations by 
threatening local nuclear first use. The underlying Russian presumption 
appears to be the expectation that the United States and NATO will 
concede territory rather than face the possibility of Russian nuclear 
first use. This Russian strategy is not the Cold War notion of a mutual 
balance of terror: it is a fundamentally new, coercive use of nuclear 
weapons and threats.
    Russian military officials speak openly of the preemptive 
employment of nuclear weapons in a conventional war. And according to 
open Russian sources, Russia has pursued specialized, low-yield nuclear 
weapons to make its first-use threats credible and its weapons locally 
employable.
    If Russian planning now follows this apparent policy (and I have no 
reason to believe it does not), it tells me that United States and NATO 
deterrence policy is now failing in a fundamental way, and the 
consequences of that failure could be catastrophic.
    Consequently, the unprecedented question to be considered in a new 
review is how the alliance can effectively deter this combined arms 
threat to our allies and partners: What deterrence concepts may be 
applicable? And, what are the corresponding metrics for Western 
conventional and nuclear force adequacy? What are the gaps perceived by 
Moscow in United States will and capabilities, and how might those gaps 
be filled? Does the United States need ``new'' nuclear capabilities for 
deterrence and assurance, or are the existing options in the stockpile 
adequate? In addition, according to numerous reports, the U.S. nuclear 
infrastructure no longer is able to respond in a timely way to the 
possibility of new requirements for deterrence and assurance. That 
capability has been lost. If true, what level of readiness should be 
deemed adequate and what needs to be done to achieve that goal?
    We also need to reconsider the prioritization of our nuclear policy 
goals. The 2010 NPR explicitly placed nonproliferation as the top 
policy goal, and stated that reducing the number of and reliance on 
U.S. nuclear weapons was a key to realizing that top goal. The ``take 
away'' from that position is that the U.S. must further reduce its 
nuclear arsenal to serve its highest nuclear policy goal. This point is 
repeated often by critics of the administration's nuclear modernization 
programs.
    Yet, at this point, the goal of nonproliferation should no longer 
be used as the policy rationale to further hammer U.S. nuclear 
deterrence capabilities. After two decades of reducing our nuclear 
deterrent and focusing elsewhere, and the emergence of unprecedented 
nuclear threats to us and our allies, the deterrence rationale for 
reviewing our nuclear policy priorities and the adequacy of our nuclear 
deterrence forces is overwhelming.
    Finally, since the end of the Cold War, the study of Russia and the 
Russian language has declined dramatically in our educational system in 
general, and the U.S. intelligence community reportedly has largely 
divested itself of the capacity to understand Russian nuclear-weapons 
policy, programs, and war planning. This is a dangerous inadequacy: 
deterrence strategies depend fundamentally on our understanding of an 
adversary's thinking and planning. If we hope to deter effectively, we 
must review the intellectual resources necessary to perform this vital 
task, and begin it again.
    There are many additional points that could be made on this 
subject, but in deference to the time, I will stop here.

    Senator Sessions. Thank you, Dr. Payne.
    Dr. Roberts.

   STATEMENT OF BRAD H. ROBERTS, DIRECTOR, CENTER FOR GLOBAL 
   SECURITY RESEARCH, LAWRENCE LIVERMORE NATIONAL LABORATORY

    Dr. Roberts. And let me add my thanks to you for the 
opportunity to be here, and to you, Senator Sessions, for the 
kind plug for my new book.
    [Laughter.]
    Dr. Roberts. You've asked us to highlight elements of 
continuity and change. And I'd like to look at the--this in two 
basic phases: the period from the end of the Cold War up to and 
including the 2009 Nuclear Posture Review, and the period 
since.
    And in the period across the three reviews and the review 
conducted by the George H.W. Bush administration, but called--
not called a Nuclear Posture Review, but, over that period, the 
two prior panelists have already hit the main point: there's a 
great deal more continuity than change in U.S. nuclear policy. 
Every President has wanted to move away from Cold War 
approaches in nuclear strategy. Every President has wanted to 
reduce nuclear arsenals. Every President has wanted to reduce 
the role and salience of nuclear weapons in U.S. deterrence 
strategies. Every President has also wanted to ensure that 
deterrence, nuclear and otherwise, would be effective for the 
problems for which it is relevant in a changed and changing 
security environment. Each administration has decided to 
maintain the triad, after, in fact, each administration 
considering whether or not that was the right outcome. Each has 
worked to ensure stable strategic relationships with Russia, 
China, and U.S. allies. Each has rejected mutual vulnerability 
as the basis of the strategic relationship with new nuclear 
armed or arming regional challengers, such as North Korea. This 
is--that last point is a huge driver, of course, of 
developments in our strategic posture.
    Let me also highlight two conspicuous changes over the 
first three Nuclear Posture Reviews. One is the steadily rising 
salience of extended deterrence and the assurance of our 
allies. By the end of the Cold War, we had almost stopped 
thinking about this problem. And in the 1990s, it was rare to 
hear a senior defense official, or otherwise, speak about 
extended deterrence and the assurance of our allies. This 
problem has come center stage again in our nuclear strategy.
    The other important change over those three NPRs relates to 
the scope of the reviews. The 1999--I'm sorry--the 1994 Review 
was very much a DOD-only look at force structuring, answering a 
simple question, Now that the Cold War is over, what do we do 
with this large force structure? The 2001 Review was more 
effective at taking a broader look at the fit of nuclear 
strategy in defense strategy more generally, and looked at how 
to utilize our nuclear capabilities and strategy to underwrite 
the objectives of assure, dissuade, deter, and defeat. And the 
2009 Review was the broadest by far. It was the first that was 
interagency in character. This, by the way, was mandated by the 
Congress. It was the first that tried to integrate all of the 
different elements of nuclear policy and strategy into a 
comprehensive hole. So, deterrence, extended deterrence, 
strategic stability, arms control, nonproliferation, and 
disarmament. That was, in part, what the Congress wanted the 
new administration to do, and it's, in part, what the new 
administration wanted to do. My view is that this was helpful, 
that a broad interagency process was effective in, one, 
ensuring the needed leadership focus and ensuring the 
leadership buy-in in the results of the review.
    Now, second phase, looking back now at the period since the 
2009 NPR. Let me highlight four key changes bearing on the 
scope and content of our nuclear strategy. The first is, of 
course, the abrupt turn in Russian security policy in spring 
2014. With this, it's no longer possible to say, as we did in 
2009, that the relationship with Russia was improving and 
presenting minimum risk of armed conflict. That's manifestly 
not the case today. But, as the new threat is principally to 
our NATO allies, our national response needed to focus on 
adapting, modernizing, and strengthening deterrence in Europe. 
This process began with the 2013 Wales Summit, a few months 
following the annexation of Crimea, and will be accelerated at 
the upcoming July Warsaw Summit. Now, does this require a 
change in U.S. nuclear policy or posture, this change in 
Russian orientation? Does this require a change in U.S. nuclear 
policy or posture, separate and apart from NATO's posture? I 
don't think so. No administration moved away from parity as the 
guiding principle in our overall strategic nuclear relationship 
with Russia. We, the Obama administration, maintain an express 
commitment to strategic equivalence with Russia and to the 
second-to-none force-sizing criterion.
    Now, the argument has been made, not by anyone on this 
panel, that Russia's nuclear assertiveness requires a 
comparable nuclear assertiveness by the United States and by 
NATO, and that Russia's buildup of its nuclear force and 
development of new nuclear weapons with new military 
capabilities for new military purposes requires a like response 
from the United States and NATO. Keith has already discussed 
some of the deficiencies in NATO's nuclear posture, and he 
almost didn't mention hardware. The deficiencies in NATO's 
nuclear posture are largely in the software side. And by that I 
mean how the alliance has talked about, displayed, and 
exercised its commitment to nuclear deterrence. I don't think 
the commitment ever went away, but it's been difficult to find 
amidst all the other noise.
    I said I'd highlight four key changes since 2009. The first 
is about Russia, of course. The second is that we have now 
learned, the Obama administration and its supporters, that the 
conditions do not now exist, and are not proximate, that would 
allow us to take substantial additional steps to reduce the 
role and number of U.S. nuclear weapons. Remember that the 
implementation of the Prague Agenda was--has been pragmatic in 
character. The administration set out a plan of action to try 
to create the conditions that would allow others, other nuclear 
weapon states, to join with us in further steps to reduce the 
role and number of nuclear weapons. After 7 years, what do we 
have to show for that? Russia's not willing to take the 
additional one-third reduction that we would be willing to take 
if they were willing to do so on a reciprocal basis. China 
hasn't even agreed to talk about nuclear weapons or to join in 
strategic stability talks. It certainly hasn't accepted any new 
nuclear transparency measures at a time of a buildup of its 
capabilities. North Korea has continued its steady progress 
towards a small nuclear force that will be capable of reaching 
out and putting the United States at risk. And our allies have 
shown themselves, in both Europe and Northeast Asia, unwilling 
to shed the last part of the capabilities that we uniquely 
associate with extended deterrence, which is our ability to 
forward-deploy B61 bombs in combination with dual-capable 
aircraft.
    So, I don't think this means we should abandon our 
disarmament nonproliferation and arms control objectives. I 
think we should recognize that they are unlikely to pay any 
significant dividends anytime soon, dividends measured in terms 
of what we need in the way of our nuclear forces. We should not 
abandon the balanced approach set out by the Perry-Schlesinger 
Commission, but we should temper our expectations.
    I think, lastly, the debate will occur about whether--if 
Russia is unwilling to join us in further arms control, should 
we simply not proceed on our own, unilaterally? We see signs of 
that debate already. Of historical note is the fact that two 
Republican administrations since the end of the Cold War were 
willing to take unilateral steps to reduce U.S. nuclear forces. 
And, of note, neither Democratic administration has been 
willing to do so. So, I think we'll have this debate, whichever 
stripe is in the White House.
    Third change. In the period since 2009, the more 
multidimensional nature of strategic conflict has come more 
clearly into focus. Nuclear weapons, missile defense, 
cyberspace, outer space, may all be separate domains, but 
they're all part of other same strategic landscape, and they're 
all a part of what we would face if ever there were to be a 
significant military confrontation with Russia or China.
    This puts a focus on the challenge of ensuring the needed 
degree of integration across these capabilities in our policy. 
This invites an important question about the scope of a 
possible 2017 Review. We, the Obama administration, conducted a 
QDR [Quadrennial Defense Review], an NPR, a Ballistic Missile 
Defense Review, a Cyber Review, and a Space Review. Should 
another administration do the same thing? Good question. I 
think integration would be important and valuable, but I don't 
see us not doing a repeat of other Nuclear Posture Review as a 
self-standing activity.
    The fourth and final difference is in the political 
context. And you've already heard remarks on this from both 
panelists. We should recall the stark divisions and paralysis 
that marked the executive-legislative process 8 to 9 years ago. 
The word has been used around this table a number of times now 
about a consensus. I'm skeptical about this consensus. I think 
it's neither broad nor deep. I'm not sure it extends beyond 
many people at this table. And I think preserving it and 
deepening it will be, and must be, a key objective of the next 
administration. And, in my view, this requires being mindful of 
those initiatives that might seem rewarding in the development 
of new capabilities, but would be damaging to the political 
will to proceed with life extension activities.
    Lastly and briefly, let me highlight three key elements of 
continuity since 2009 that I think we haven't so far discussed:
    The first is about Asia. The 2009 Nuclear Posture Review 
was really the first to give a very prominent place to thinking 
about Asia in our nuclear strategy. Our focus is always, 
traditionally, on Russia. How do we put a focus on China? Our 
focus on extended deterrence has almost always been about 
Europe. How do we think about the extended deterrence 
requirements of Northeast Asia and the particular assurance 
requirements of allies there? These remain important tasks, and 
we can't let our focus on Russia and our concern about Russia 
distract us from the Asian environment.
    Secondly, let me put a finer point on a point John Harvey 
made. We've said, all three administrations, we want a hedge, 
we need a hedge, the need for the hedge is rising because the 
geopolitical environment is becoming more uncertain. We will--
we've committed to reducing our reliance on a large stockpile 
of uploadable weapons that are aging and expensive to maintain 
by increasing our reliance on a flexible, adaptive nuclear 
infrastructure to produce new capabilities in the future if we 
need them, we don't have it. We're not getting closer to having 
it. We're not even sure what that would cost. This is a problem 
that the Strategic Posture Commission in 2009 very much 
emphasized, and where the problem still sits in front of us 
today.
    Lastly, each administration has debated whether new nuclear 
weapons for new military purposes with new military 
capabilities are needed. We are certain to have this debate 
again. We should have this debate. It's an important debate to 
have. There is no unmet military requirement today. I don't 
believe you've heard from the STRATCOM commander, or a former 
commander, indicating that there is some significant 
deficiency, in terms of STRATCOM's ability to deliver on the 
guidance it's been given. There is a gap in technical 
capability. These weapons are old. Where they're deficient is 
in their age.
    Is there a case for new nuclear weapons? Yes. One argument 
we've heard is that this will reinforce deterrence because it 
will give us a lower-yield option that the President might find 
more credible to threaten. Another argument is that we need new 
weapons in order to enhance the ability of our laboratories to 
produce in the future. These are both valid arguments. I find, 
on balance, neither of them persuasive. I think we can move to 
the prototyping of new weapons without producing new ones, and 
gain the benefits that we need in our infrastructure. And I 
think there are other ways, other than hardware fixes, to deal 
with the deficiencies in our deterrence posture.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Roberts follows:]

                 Prepared Statement by Dr. Brad Roberts
    Thank you for the opportunity to participate in this preliminary 
discussion of a possible 2017 Nuclear Posture Review. I would like to 
underscore that the views I am presenting here are my personal views, 
following on my service as Deputy Assistant Secretary of Defense for 
Nuclear and Missile Defense Policy from 2009 to 2014 (in which capacity 
I was co-director of the 2009-10 NPR) and on my authorship of a 
recently published book on U.S. nuclear policy (The Case for U.S. 
Nuclear Weapons in the 21st Century, Stanford University Press, 
December 2015). Please do not attribute my views to my new employer as 
of last spring, Lawrence Livermore National Laboratory.
    You have asked us to highlight elements of continuity and change in 
U.S. nuclear policy. Surveying the nuclear policies of all four post-
cold war administrations, the continuities are striking. Every 
president has wanted to move away from Cold War approaches, to reduce 
nuclear arsenals, and to reduce the role and salience of nuclear 
weapons in U.S. deterrence strategies. Every president has also wanted 
to ensure that nuclear deterrence would be effective for the problems 
for which it is relevant in a changed and changing security 
environment. Each administration has decided to maintain the Triad. 
Each has worked to ensure stable strategic relationships with Russia, 
China, and United States allies. Each has rejected mutual vulnerability 
as the basis of the strategic relationship with new nuclear-armed or 
arming regional challengers.
    Let me also highlight two conspicuous changes over the three 
nuclear posture reviews. One is the rising salience of extended 
deterrence and the assurance of our allies--which has returned to as 
central a place in our nuclear strategy as it had at the height of the 
Cold War. The other change relates to the scope of the reviews. The 
1994 review was the narrowest of the set, focused largely on force 
structure decisions. The 2001 review was broader, linking strategies 
for modernizing deterrence to a changing defense strategy. The 2009 
review was the broadest. As mandated by Congress, it was DOD-led but 
interagency in character and fully elaborated the ``balanced approach'' 
recommended by the Perry-Schlesinger Strategic Posture Commission 
(balancing political means to reduce threats with military means to 
deter them so long as they exist). Such a broad review helped to ensure 
leadership focus, leadership ``ownership'' of main messages, and 
effective interagency implementation. These are important benefits of 
continuing value.
    From the vantage point of January 2016, what are the key elements 
of change and continuity bearing on the U.S. nuclear posture? I will 
briefly highlight here four key changes.
    1.  With the abrupt turn in Russian security policy in spring 2014, 
it is no longer possible, as it was in 2009, to characterize the 
relationship with Russia as improving and presenting minimum risks of 
armed conflict. But as the new threat is principally to our NATO 
allies, our national response needs to focus on adapting and 
strengthening deterrence in Europe. This process began with the 2013 
Wales summit and will be accelerated at the upcoming Warsaw summit. 
Does this require a change in U.S. nuclear policy or posture, separate 
and apart from NATO's posture? The current posture is sized and 
structured to maintain strategic stability with Russia. The Obama 
administration, like its predecessors, has maintained ``second to 
none'' as a guiding principle and has maintained the resilience of the 
force so that it is not vulnerable to a preemptive strike. The argument 
has been made that Russia's nuclear assertiveness requires a parallel 
nuclear assertiveness by the United States and that its large and 
diverse theater nuclear force requires a symmetric NATO nuclear force, 
along with a new generation of ultra low-yield weapons. The 
deficiencies in NATO's nuclear posture are not in its hardware, 
however, which is robust for the deterrence of Russian de-escalation 
strikes. The deficiencies are in its software--in the ways in which the 
Alliance expresses its convictions about the role of nuclear deterrence 
(and which will be addressed in Warsaw).
    2.  In the period since 2009, we have learned that the conditions 
do not now exist--and are not proximate--that would allow us to take 
additional substantial steps to reduce the role and number of U.S. 
nuclear weapons. The Obama administration set out a practical agenda 
for seeking cooperation with other nuclear-armed states to move in this 
direction. What are the results? Russia has proven unwilling to take an 
additional one-third reduction. China has proven unwilling to embrace 
new transparency measures--or even to discuss strategic stability. 
North Korea has continued its nuclear build up. Our allies are 
unwilling to abandon the U.S. nuclear capabilities uniquely associated 
with extended deterrence (i.e., non-strategic nuclear weapons forward-
deployed or deployable). This does not mean that the United States 
should abandon the arms control, nonproliferation, and disarmament 
projects. Doing so would only further aggravate the problem. We should 
not abandon the ``balanced approach.'' But the United States should 
temper its expectations. And it should refrain from unilateral steps 
that supposedly put pressure on others to join us. If it made no sense 
in 2009 to take unilateral action to eliminate a leg of the triad, it 
makes even less sense today.
    3.  In the period since 2009, the more multidimensional nature of 
strategic conflict has come more clearly into focus. Nuclear weapons, 
missile defense, cyber, and space may be separate domains, but they are 
all part of the same strategic landscape. This puts a focus on the 
challenge of ensuring the needed degree of integration in policy, 
strategy, and execution. This invites an important question about the 
scope of a possible 2017 review. The Obama administration conducted a 
set of separate but linked reviews of these different posture elements. 
Might an alternative approach enable more effective integration? 
Possibly. But a single, comprehensive strategic review would be 
difficult to do on an interagency basis, whereas the 2009 NPR benefited 
significantly from that interagency aspect.
    4.  A final key difference is in the political context. In the lead 
up to the Obama administration, executive-legislative gridlock had 
prevented any modernization decisions. The Strategic Posture Commission 
(SPC) helped to remedy that problem, with its bipartisan advice to the 
Obama administration to pursue modernization by life extension, which 
the administration accepted. In the interim, we have not recovered a 
broad and deep bipartisan consensus on nuclear modernization. But we 
have achieved sufficient agreement within and across the parties to 
enable a series of positive decisions to support modernization with 
steadily increasing investments. This needs to be preserved and 
nurtured. Repeating the SPC would not be useful or necessary toward 
that end. A private bi-partisan initiative could, however, help set the 
right context and provide the right markers for the journey ahead.
    Let me round out my introductory remarks by highlighting three key 
elements of continuity since 2009.
    1.  Asia is as relevant to the United States nuclear posture as is 
Europe. China's nuclear future has nearly as many large question marks 
as does Russia's. Our pursuit of strategic stability with both needs to 
continue to adapt. Our Northeast Asian allies are as anxious about 
extended deterrence in a changing security environment as are our 
Central and Northern European allies. Don't let the Russia problem 
distract us from this strategic truth
    2.  We still don't have the hedge we say we want. Each 
administration since the Cold War has wanted to ensure that we have a 
strong national capacity to respond to both geopolitical and technical 
surprises. Each has wanted to reduce reliance on a large and expensive-
to-maintain stockpile of aging nuclear weapons as a hedge against 
uncertainty by increasing reliance on a responsive and adaptive nuclear 
weapons complex. The Strategic Posture Commission put special emphasis 
on this point. Fixing this problem with the proper investment and 
governance strategies should be a key priority. I know of no one who 
thinks that the risks of geopolitical and technical surprise are 
declining.
    3.  Each administration has debated whether new nuclear weapons are 
needed -and we are certain to have this debate again. The George W. 
Bush administration's pursuit of new weapons came to a political dead 
end. The Obama administration's pursuit of a modern arsenal through the 
life extension of existing capabilities has been more successful. There 
are two arguments for new weapons--that we need them for deterrence and 
that we need them to sustain our national design competence. Both 
arguments have some merit. But there is no good reason to think that a 
new effort to build new weapons for new military purposes would not too 
come to a political dead end. Moreover, there are other means to 
strengthen deterrence and sustain design competence.
    Thank you for the opportunity to join in this discussion. I look 
forward to your questions.

    Senator Sessions. Thank you.
    Mr. Miller.

STATEMENT OF FRANKLIN C. MILLER, PRINCIPAL, THE SCOWCROFT GROUP

    Mr. Miller. Mr. Chairman, Ranking Member Donnelly, members 
of the committee, it's an honor to be in front of you. It's an 
honor to be here with my colleagues, with whom I have spent 
decades working together. It's an honor to see Senator 
Sullivan, with whom I spent time on the NSC [National Security 
Council] staff, back in the old days.
    You asked me, sir, to comment on our nuclear----
    Senator Sessions. Was he as brilliant then as he is today?
    Mr. Miller. Yes, sir, he was.
    You asked me to comment on our nuclear posture, which I 
understand personally to mean our understanding of the threats 
we face, our declaratory policy, and the state of our forces. 
And sadly, I must report to you that I'm deeply concerned on 
all counts. I believe we have declined in all three areas since 
the beginning of this century.
    It should be evident by now, although, astonishingly, it 
isn't in all quarters of this town, that the world President 
Obama called for in his April 2009 Prague speech is not the one 
he's bequeathing to his successor. Rather than reducing 
reliance on nuclear weapons, North Korea, Russia, and China 
have significantly increased the role those weapons play in 
their national security strategies. North Korea is now a 
nuclear weapon state. China is modernizing its long-range 
nuclear forces across the board. President Putin, over the last 
10 years, has engaged in an across-the-board modernization of 
his strategic nuclear forces and his theater nuclear forces--in 
the process, violating the 1991-1992 Presidential Nuclear 
Initiatives and the INF Treaty. Russian Defense Minister Shoygu 
remarked last month that 56 percent of Russian nuclear forces 
are new. You know about the dangerous military activities that 
the Russians are engaged in using their strategic bombers, 
their nuclear exercises which explicitly target NATO members, 
and you've heard the stream of saber-rattling statements coming 
from Putin and his cadre, the likes of which have not been 
heard since the days of Nikita Khrushchev.
    Regrettably, our declaratory policy, apart from stating, 
quote, ``As long as nuclear weapons exist, the United States 
will maintain a safe, secure, and reliable deterrent,'' close 
quote, our policy has not recognized the threats posed by the 
developments I've just described. Deterrence rests on getting 
inside the head of the potential aggressor. If we think of 
history, to the extent our unwillingness to respond is 
perceived by the Russian leadership as weakness, much as Hitler 
perceived the failure of Britain and France to respond to his 
reoccupation of the Rhineland and his annexation of Austria and 
Czechoslovakia, to the extent that he, Hitler, saw that as 
proof Britain and France would not defend Poland, then we, 
ourselves, have to be concerned whether we've left the door 
open to potential Russian miscalculations, miscalculations 
which could prove fatal in a crisis. We need to make clear to 
Mr. Putin that, despite what he says in his exercises, that any 
use of a nuclear weapon--any use--could lead to unpredictable 
outcomes which could result in the destruction of his country 
as well as the rest of the world.
    Moreover, in sharp contrast to both Russia and China, the 
United States has not deployed a new strategic system in this 
century. The bomber and ICBM legs of our triad have significant 
deficiencies. And yet, the modernization programs for all three 
legs of the triad remain in the planning stages, with new 
systems not due in the field until the mid- to late-2020s. Even 
given that, we hear the arms control community calling for the 
end of the long-range standoff weapon, which would take the B-
52 out of the triad and essentially eviscerate the air leg of 
the triad, killing the B61 bomb, which would end our nuclear 
forward presence in NATO and end our nuclear sharing there, 
calls to cancel the Minuteman ICBM Modernization Program, and 
even calls to cut back the number of new replacement 
submarines.
    As a result of all of this, I do believe a major review of 
our nuclear posture is required to better align us to deter 
foreign leaders whose polices, pronouncements, and investments 
in nuclear forces suggest they might actually believe in 
military use of such weapons in a crisis.
    I may have a slightly different take from my colleagues--
some of my colleagues, however, on how that review should be 
carried out. I believe it is incumbent on any new 
administration to review its predecessor's policies. Certainly, 
this is true with respect to defense policies and nuclear 
policies. But, I believe such a review should be conducted 
promptly and quietly in a highly classified manner within a 
select group of policymakers and senior military officials in 
the Pentagon. The results of that review should be shared with 
the President and the Vice President. Changes which the review 
might suggest, if approved by the Secretary of Defense or by 
the President, as appropriate, should then be implemented and 
announced when--at a time, and in a manner it achieves maximum 
security benefits for ourselves and our allies. The relevant 
congressional committees should be consulted and kept abreast 
of decisions which may have been required, and all of this well 
before any public rollout.
    But, the hype and publicity created by holding 
congressionally mandated Nuclear Posture Reviews tends, on the 
other hand, to create significant and early expectations that 
there will be opportunities for all interested parties to 
comment on the draft changes and to affect their trajectory. In 
particular, the inclusion of the State Department and the White 
House staff have led to an overemphasis on arms control 
initiatives and nonproliferation policies. While those are 
important, the basic nuclear posture which the United States 
requires to deter an attack on ourselves and on our allies 
should be decided on firm national security principles. Having 
decided these, an administration can expand its focus, where 
arms control may be able to help support nuclear stability on a 
regional or global basis. And it is here that the State 
Department will, of course, have a role. Again, however, this 
should be after basic deterrent requirements have been 
established.
    There are other good arguments against recreating prior 
NPRs. Full-blown interagency involvement in Nuclear Posture 
Reviews tends to increase significantly the amount of time 
necessary to reach and, therefore, to implement conclusions. 
Endless meetings of interagency working groups serve to slow 
the review process and don't improve its results.
    Furthermore, holding NPRs on a quadrennial basis has 
created the expectation that nuclear policy needs to change 
with every new administration. Contrary to changing policy 
simply because a new administration has taken office are the 
facts that the basic tenets--as has been described, the basic 
tenets of our deterrence policy, as contrasted with their 
implementation, have been remarkably consistent over the 
decades, and this has served our country well, as well as our 
allies. And the basic tenets include deterrent threats on the 
ability to convince an enemy leadership that our retaliation 
will impose costs which will outweigh any gains he hopes to 
make. To be credible, we must have a retaliatory force which 
can clearly impose the costs our policy requires, even under 
the worst-case conditions of a surprise attack. And our 
retaliation must focus on assets the enemy leadership values, 
not on what we value. This means, as Keith Payne suggested, we 
must always continue to study potential enemy leaderships to 
understand their value structures.
    I say all of this based on my own experiences in the 
Department of Defense. Beginning in October 1981, I became the 
senior-most official in OSD [Office of the Secretary of 
Defense] policy tasked on a day-to-day basis with managing U.S. 
nuclear deterrence policy. And I maintained that position 
through January 2001, when I was detailed to the NSC. During 
the period 1981 to 2001, we in OSD, working with the Joint 
Staff and the Nuclear Staff in Omaha, and with the strong 
support of several Secretaries of Defense, one, corrected the 
perception that the Reagan administration believed in nuclear 
warfighting; two, completely reconfigured U.S. declaratory 
policy; three, weathered the nuclear freeze and nuclear winter 
movements while maintaining support for our deterrent; fourth, 
maintained the vast majority of our strategic triad 
modernization efforts on track; fifth, completely overhauled 
the Nation's nuclear war plans twice, once during the period 
1989 to 1991, and then again as Russia began to--as the USSR 
began to disintegrate, we did it again in 1991; and based, 
lastly, on a firm understanding of our deterrent needs, 
developed proposals which formed the basis of the 1991-1992 
presidential initiatives and the START II Treaty.
    Most of this was done within the defense establishment and 
public mention by the then-Secretary of Defense when final 
decisions were made or approved by himself or the President. 
Some of the major changes, specifically those involving war 
plans, were never announced. We didn't raise public 
expectations that change was necessary, nor, in both Democratic 
and Republican administrations, did we ask for public comment 
on what we proposed to do. Neither did we involve the other 
executive branch departments and agencies, with the exception 
of coordinating with the Department of Energy on developing and 
fielding the new nuclear warheads. The one NPR in which I was 
involved, that of 1993-94, proved a disappointment, in that it 
raised many expectations about radical changes in our posture 
which were not fulfilled because the international situation 
made such changes imprudent at best, and dangerous at worst. 
Accordingly, I would urge Congress not to mandate the incoming 
administration to conduct another Nuclear Posture Review, even 
though I would recommend that that review take place quietly 
and internally.
    Mr. Chairman, I thank the committee for asking me to 
testify, and I look forward to answering your questions on my 
somewhat different views.
    [The prepared statement of Mr. Miller follows:]

                Prepared Statement by Franklin C. Miller
    Committee Tasking: ``We would like you to provide an assessment of 
the continuities and changes in the U.S. nuclear posture since the end 
of the Cold War, with an eye toward what we've gotten right and what 
policies and/or assumptions have not been borne out by recent events. 
Most importantly, please provide the committee your thoughts about how 
the current nuclear posture should be changed to address the strategic 
environment as you see it evolving over the next 25 years. In other 
words, what should be the major considerations and content of the next 
nuclear posture review.''
    I am honored to be here and would like to thank the Committee for 
asking me to join my distinguished colleagues and friends on this 
panel. I have worked with each of these gentlemen for many many years 
and I deeply respect them and their contributions to the United States.
                the nuclear posture of the united states
    You asked me to comment on our nuclear posture--which I understand 
to mean our understanding of the threats we face, our declaratory 
policy and the state of our forces. Sadly, I must report to you that I 
am deeply concerned on all counts, and that I believe we have declined 
in all three areas since the beginning of this century. It should be 
evident to all, although astonishingly it is not so--particularly in 
the Washington-based arms control village--that the world President 
Obama called for in his April 2009 Prague speech is not the one he is 
bequeathing to his successor. Rather than reducing reliance on nuclear 
weapons, Russia, China, and North Korea have all significantly 
increased the role those weapons play in their respective national 
security strategies. North Korea is now a full-fledged nuclear weapons 
state. China is engaging in a major modernization of its 
intercontinental land-based and sea-based nuclear missile forces.
    And President Putin has increasingly over the last decade, presided 
over an administration which is:
    <bullet>  Engaged in an across-the-board modernization of both its 
strategic nuclear triad and its shorter range nuclear forces, in the 
process violating both the landmark 1987 Intermediate Nuclear Forces 
(INF) Treaty and the 1991-1992 Presidential Nuclear Initiatives (PNIs). 
In sharp contrast to our programs, which are with the exception of 
updating the antiquated B-61 bomb all in the planning phase, the 
Russians are deploying their new systems on land and at sea. Last month 
Russian Defense Minister Shoigu stated that over 50% of Russian nuclear 
forces are ``new'';
    <bullet>  Using strategic bombers to engage in highly dangerous 
military activities and maneuvers adjacent to the our own airspace and 
that of our NATO and Pacific allies (in some cases actually endangering 
civil aviation);
    <bullet>  Carrying out a series of nuclear exercises which 
explicitly simulate attacks on our NATO allies; and
    <bullet>  Issuing a stream of nuclear saber rattling policy 
statements and specific threats, including many by Putin himself, the 
likes of which have not been heard since the days of Nikita Khrushchev.
    Regrettably, our declaratory policy, apart from stating that ``as 
long as nuclear weapons exist the United States will maintain a safe, 
secure and reliable deterrent'' has not recognized the threats posed by 
the developments I have just described. To the extent that our 
unwillingness to respond is perceived by the Russian leadership as 
weakness--much as Hitler perceived the failure of Britain and France to 
respond to his reoccupation of the Rhineland and his annexations of 
Austria and Czechoslovakia as proof that London and Paris would not 
defend Poland--then we have left open the door to potential 
miscalculations by Mr Putin and his gang, miscalculations which could 
prove deadly in a crisis.
    Moreover, in sharp contrast to both Russia and China, the United 
States has not deployed a new strategic system in this century. The 
bomber and ICBM legs of our Triad have significant deficiencies. And 
yet, the modernization programs for all three legs of the Triad remain 
in the planning stages, with new systems not expected in the field 
until the mid-to-late 2020's. Worse yet, the arms control community 
continues--despite the deal it struck to support Triad modernization in 
exchange for ratification of New Start--to call for slashing the 
modernization programs: eliminating the replacement for the air 
launched cruise missile (thereby taking the B52 out of the Triad and 
eliminating our ability to use the so-called ``bomber discount rule'' 
which then-Strategic Command head General Bob Kehler said was crucial 
to maintaining sufficient strategic weapons numbers under New Start); 
eliminating the replacement for the Minuteman ICBM; cancelling the B61 
modernization program, thereby ending NATO's forward based nuclear 
deterrent and its concurrent nuclear risk- and burden-sharing; and 
cutting back the number of SSBNs (which, in the aggregate, will carry 
upwards of 70% of our deterrent under New Start).
    As a result of all this, I believe a major review of our nuclear 
posture is required in order to better align us to deter foreign 
leaders whose policies, pronouncements, and investments in nuclear 
forces suggest that they might actually believe in military use of such 
weapons in a crisis.
 reviewing our nuclear posture or a holding new nuclear posture review
    I believe I have a slightly different take from my colleagues, 
however, on how that nuclear review should be carried out. Let me say 
at the outset that I believe it is incumbent on every incoming 
Administration to review its predecessor's policies. This is certainly 
true with respect to defense policies and particularly the case with 
respect to nuclear deterrence policy and the programs and plans which 
support that policy. Where I believe I may part company with my 
colleagues, however, is that I believe such a review should be 
conducted promptly and quietly and in a highly classified manner, 
within a select group of policy makers and senior military officials in 
the Pentagon; the results of such a review should be shared with the 
President and the Vice President. Changes which the review might 
suggest, if approved by the Secretary of Defense or the President, as 
appropriate, should then be implemented and announced when appropriate 
and at a time and in a manner which achieves maximum national security 
benefit for the United States and our allies. The relevant 
Congressional Committees should be consulted where appropriate and kept 
abreast of decisions which may have been required--and all this well 
before a public roll-out.
    The hype and publicity created by holding ``Congressionally-
mandated Nuclear Posture Reviews'' tends, on the other hand, to create 
significant and early expectations on the Hill and elsewhere that there 
will be opportunities for all of the interested parties--Congressional, 
other Executive branch agencies, and public interest groups--to comment 
on the draft changes and to affect their trajectory. In particular, the 
inclusion in the past of the State Department and the White House staff 
have led to an over-emphasis on arms control initiatives and non-
proliferation policies. While those are important, the basic nuclear 
posture which the United States requires to deter attack on ourselves 
and on our allies should be decided on firm national security 
principles; having decided these, an Administration can expand its 
focus to where arms control might be able to help support nuclear 
stability on a regional or global basis--and it is here that the State 
Department will have a role. Again, however, this would be after the 
basic deterrent requirements had been established.
    There are other good arguments against recreating prior NPRs. Full-
blown interagency involvement in Nuclear Posture Reviews also tends to 
increase significantly the amount of time necessary to reach--and 
therefore to implement--conclusions; endless meetings of interagency 
working groups serve to slow the review process and do not improve its 
results. Furthermore, holding NPRs on a quadrennial basis also has 
created the expectation that nuclear policy needs to change with every 
new Administration. Contrary to changing policy simply because a new 
Administration has taken office are the facts (1) that the basic tenets 
of U.S. nuclear deterrence policy (as contrasted to the implementation 
of those policies) have been remarkably consistent over the decades, 
and (2) that such consistency has served the nation, and our allies, 
well.
    Those basic tenets include:
    <bullet>  Deterrence rests on the ability to convince an enemy 
leadership that our retaliation will impose costs which will outweigh 
any gains he hopes to make through his aggression;
    <bullet>  To be credible, we must have a modern retaliatory force 
which can clearly ipose the costs our policy requires--even under the 
worst-case conditions of a surprise attack;
    <bullet>  Our retaliation must focus on assets the enemy leadership 
values--not on what we value; this means we must always study potential 
enemy leaderships tho understand their value structures;
    My views are based on my own experiences in the Department of 
Defense. Beginning in October 1981, I became the senior most official 
in OSD/Policy, tasked on a day-to-day basis with managing U.S. nuclear 
deterrence policy (with the exception of actual nuclear target 
planning). In 1985, I also assumed responsibility for nuclear target 
planning. As I advanced in my career, rising to be a Deputy Assistant 
Secretary, a Principal Deputy Assistant Secretary, and an Assistant 
Secretary, I maintained control of the nuclear portfolio. This 
continued through January 2001, at which point I was seconded to the 
White House as Senior Director for Defense Policy and Arms Control. 
During the period 1981-2001, we in OSD, working with the Joint Staff 
and the nuclear staff in Omaha, and with the strong support of several 
Secretaries of Defense:
    <bullet>  corrected the perception that the Reagan Administration 
believed in nuclear war-fighting,
    <bullet>  reconfigured U.S. declaratory policy,
    <bullet>  weathered the nuclear freeze and nuclear winter movements 
while maintaining support for our deterrent,
    <bullet>  maintained the vast majority of the strategic Triad 
modernization efforts on track,
    <bullet>  completely overhauled the nation's nuclear war plans 
twice (once during the period 1989-1991, and then again as the USSR was 
beginning to disintegrate in 1991)
    <bullet>  and, based on a firm understanding of our deterrent 
needs, developed proposals which formed the basis of the 1991-1992 
Presidential Nuclear Initiatives with Russia and of the START 2 Treaty.
    Most of this was done within the Defense establishment, and public 
mention was made by the then-Secretary of Defense when the final 
decisions had been approved either by himself or by the President. Some 
of the major changes, particularly those relating to the war plans, 
were never announced. We did not raise public expectations that change 
was necessary nor, in both Democrat and Republican Administrations, did 
we ask for public comment on what we proposed to do. Neither did we 
involve the other Executive Branch departments and agencies (with the 
exception of coordinating with the Department of Energy on developing 
and fielding new nuclear warheads.) The one NPR in which I was 
involved, that of 1993-1994, proved a disappointment in that it raised 
many expectations about radical changes in our posture which were not 
fulfilled because the international situation made such changes 
imprudent at best and dangerous at worst. Accordingly, I would urge 
Congress not to mandate that the incoming Administration conduct yet 
another Nuclear Posture Review.
    Mr. Chairman, I again thank the Committee for asking me to testify 
and I look forward to answering any questions the Committee might have 
for me.

    Senator Sessions. Thank you. Well, it's an important 
situation we're dealing with.
    I hope, as we go forward, maybe we'll take turns. If 
somebody would like to follow up a little bit on what the 
previous questioners' questions were out of turn, just raise 
your hand, and--if you want to clarify something. Let's don't 
be afraid to ask simple questions, because sometimes those are 
the best questions that get asked.
    We had Secretary James of the Air Force testify this 
morning. She repeated what others have said, that Russia 
represents the greatest threat, or the potential greatest 
threat, to the United States. It's sort of painful to hear that 
said, when we were so hopeful other things might--things might 
be different.
    So, we've had some assumptions for a long time that have 
driven our nuclear strategy. And let me ask you about this. So, 
one of the assumptions I think were--is that great power 
conflicts--Russia/United States, in particular--are a thing of 
the past. Another one was, it--the United States should lead 
and that others would follow to reduce the importance of 
nuclear weapons to their national security. I would say--this 
is one quote the President delivered in South Korea, under the 
umbrella, ``As President, I've changed our nuclear posture to 
reduce the role and number of nuclear weapons in our national 
security strategy. I made it clear the United States will not 
develop a new nuclear warhead, will not pursue new nuclear 
missions for nuclear weapons. We've narrowed the range of 
contingencies under which we would ever use, or threaten to 
use, nuclear weapons.'' It was a pretty historic statement, I 
thought, particularly in light of where it was delivered.
    Rose Gottemoeller, in Prague in 2015--2014, December--at 
a--altered that position a bit. She says, quote, ``We are 
seeing new and enduring pressures on the nonproliferation 
regime, pressures that threaten global stability. We are seeing 
nations turn away from cooperation, turn away from the common 
good of nonproliferation efforts and cling ever more tightly to 
their nuclear arsenals.''
    Another early assumption was that conventional substitutes 
for nuclear weapons--conventional weapons--would diminish the 
need for nuclear weapons. It--so, here we'd like to--I'll start 
with Dr. Harvey. You started this off. And maybe we'll take a 
minute or two here and discuss. Have assumptions--do our 
assumptions need to be changed?
    Dr. Harvey. I would say, first of all, that I think the 
greatest nonproliferation mechanism since the end of World War 
II has been the North Atlantic Alliance and the extension of 
nuclear forces from the United Kingdom, France, and the United 
States to that alliance so that countries--many countries in 
that alliance who had the capability, both technical and 
political, to produce their own nuclear weapons have not. In 
this--and by the same course, our extension of our deterrent to 
Japan and South Korea have provided the disincentive for those 
two countries to develop their own nuclear weapons. Another 
success for nonproliferation. So, I think you need to look at 
this from that perspective.
    The second point I want to make was one you made earlier, 
which is that I would say part of the continuity is--from all--
since the end of the Cold War, all presidential administrations 
have sought to reduce the role of nuclear weapons. President 
George W. Bush, a fundamental part of his Nuclear Posture 
Review was the inclusion of defenses--conventional defenses and 
the inclusion of precision conventional strike to try to free 
up some of the needs for nuclear weapons to fill some of those 
roles.
    Senator Sessions. I guess that time is going to----
    And, Dr. Payne, you--if you would respond. And--but, it 
does appear that the goal--the presidential policy, as the 
President Stated in South Korea, not to develop new weapons, 
and et cetera, et cetera, we have--it hasn't had the desired 
result, it would seem to me.
    But, anyway, what's your comment, in general?
    Dr. Payne. Thank you, Mr. Chairman.
    Let me comment on the first point that you made, the notion 
that conflict is a thing of the past. This was one of the great 
hopes of the post-Cold War order. We were going to be in a new 
world order that was going to be more benign. And, 
particularly, we and the Russian Federation would be able to 
cooperate and possibly even get to near-allied status. Go back 
and look at--that was----
    Senator Sessions. That was absolutely the dream.
    Dr. Payne. That was the hope and, in some cases, the 
expectation, even. Even as recently as 2012, a former Vice 
Chair of the Joint Chiefs of Staff said the idea of conflict 
between the United States and Russia is a thing of the past, 
not the future.
    Let me just suggest, as an extension of what I said 
earlier, is that, given what we now know the Russians are 
saying, both externally and to themselves in their open 
documents, their views are based on a very different 
understanding of how the world now works. They are talking 
about an expansion of Russian dominance into areas that we 
thought were settled in the post-Cold War order, including the 
change of territorial borders by force, if necessary. And what 
they talk about is the use of nuclear threats, and, indeed, 
even nuclear employment, if necessary, as cover for that 
Russification and expansion of Russian domination. 
Unfortunately, we've seen conflicts come out of that. We know, 
at least it's reported, that in 2008 Russia went to a nuclear 
alert in its operations against Georgia, and in 2014, President 
Putin said that he had thought about going to a nuclear alert. 
This is a very different world than we expected, post-cold-war. 
And so, that's where--that's the line of thinking that leads me 
to concur that there needs to be a review--a defense review of 
some sort, the details to be worked out, because the world has 
changed in a major way. And so, how we've looked at these 
things over the last two decades also needs to change.
    Senator Sessions. Well, thank you. I know others would like 
to comment, but I'll turn to Senator Donnelly. I would note 
your comments in your opening remarks about the very technical 
nature of their tactical weapons evidences a serious 
contemplation that they might be used. Would you agree with 
that?
    Dr. Payne. Yes, sir. The open Russian press from senior 
Russian officials and scientists suggest exactly that. In fact, 
in an important case, Victor Mikhailov has said--it was a--he 
was head of the Sarov--was--at the time, was the head of the 
Sarov Institute--said that the Russians were working--making 
great progress on a nuclear scalpel that could be used in a 
conventional conflict. As we understand, the idea is that a 
nuclear scalpel could be used that would be at such a level 
that the West would not respond, because it would be 
essentially deterred from responding at a nuclear level, and 
therefore, the West would essentially back down. I mean, that 
appears to be at least part of the Russian thinking, and it's--
it goes by the name of ``to escalate to de-escalate a 
conflict.'' In other words, escalate to nuclear use, and that 
de-escalates the conflict. It de-escalates a conflict because 
the West backs down. That's the notion of what's being 
discussed, openly.
    Senator Sessions. That's a grim reality.
    Senator Donnelly?
    Senator Donnelly. Thank you very much, Mr. Chairman.
    You can't always determine what another person thinks. You 
can influence it one way or another, but you can't think for 
them. I'm curious, just as a starter, Do any of you believe 
that NATO would not fulfill--NATO countries would not fulfill 
their treaty obligations to another NATO country if they were 
attacked? Do any of you believe we would not?
    Dr. Roberts. No.
    Senator Donnelly. Do any of you believe that the Russians 
think we would not respond?
    Mr. Miller. I believe that there are reasons that they 
could convince themselves, however wrongly, that we would not 
respond. And that is my concern, sir.
    Senator Donnelly. And you can send signals, but you can't, 
on your own, determine what another person thinks or how 
they're going to behave as they move forward. Let me ask you 
this, to all of you. The ruble is worth 82, 83, somewhere 
between 80 and 85--the last week, 85 rubles to a dollar, based 
primarily on oil, their economy. As their economy grows into 
deeper trouble, do you think that makes Russia more dangerous 
or less dangerous on this front?
    Dr. Payne. I think it has both effects, or it has 
potentially both effects. In other words, what the Russians 
have been--President Putin, in particular, has been saying 
about the reduced economic resources is that Russia would 
continue to make the military the first priority, and, in that 
context, nuclear weapons the highest priority within the 
defense establishment.
    That said, if the resources dwindle as much as it looks 
like they might, the question is, To what extent can they 
actually maintain that? The Russians seem to suggest that 
they're going to maintain it. Whether they will or not, I 
think, is an open question. And that may make them more 
dangerous, not less dangerous.
    Senator Donnelly. And then I guess the followup question to 
that is, As you look at this, how much of what you're hearing 
from them is being driven by their economic conditions, the 
things they're struggling through, that they have to have 
something to talk about, something to lead forward with?
    Mr. Miller. Sir, I'd say that what we saw, starting about 6 
to 8 years ago, was President Putin changing the nature of the 
Russian political system, even when they were riding high, 
economically. And so, the emphasis on nationalism, the emphasis 
on being surrounded by foreign forces, the elimination of 
political opposition at home is part of the picture, whether 
they're making money or not.
    I think, to your prior question, it's always a concern 
that--Russian history shows that, when regimes are having some 
problems at home, they start to focus people's attention abroad 
and to stir up nationalism.
    All that said, I don't believe we're in any serious 
circumstance of having Russia reach out and grab one of our 
NATO allies. Now, I'm not sure what would happen in a crisis, 
when he thought that was his least worst option.
    Senator Donnelly. When you look at this on a continuing 
basis--one of the things we've heard in the past is that, some 
years ago, when it was clear that Russia--if there was a ground 
action in that area, Russia had--would have--had a stronger 
presence than NATO would. Now you look, and we've heard that 
NATO on the ground would have a much stronger presence. You 
don't think so.
    Mr. Miller. No, sir. Again, if you look, geographically, at 
the combination of ground forces in the Baltic region, the 
Russian forces are much stronger. The Secretary of Defense has 
taken great steps to improve our own capabilities, deploying 
smaller numbers of U.S. forces, but the conventional balance on 
the Russo-Baltic border is clearly----
    Senator Donnelly. Well, how far do they go before it 
matches up?
    Mr. Miller. NATO?
    Senator Donnelly. Yeah, before NATO forces and Russian 
forces----
    Mr. Miller. Tens of thousands of forces, sir, that we're 
not----
    Senator Donnelly. No, no, I'm sorry. What I mean is, on the 
ground, how far would they have to go before it becomes an even 
fight? Like heading over--in toward Europe?
    Dr. Harvey. We have to reinforce, and then we can win the 
war, but it takes us time to reinforce.
    Senator Donnelly. But, with the reinforcements on the 
ground, we have the advantage, at that point.
    Dr. Roberts. We do not. We do not--we have--the current 
NATO conventional force structure cannot be deployed in any 
kind of timely fashion to redress a Russian invasion. The 
reinforcements would have to come from across the Atlantic.
    Senator Donnelly. So, you don't think that any of their 
talks in regards to nuclear weapons is related to shifting 
forces on the ground and shifting advantage on the ground.
    Mr. Miller. Well, the concern would be if--if they achieved 
a quick, limited tactical victory and we began to reinforce, 
that the threat would then come--if we didn't stop our 
reinforcements and simply leave the situation in the status 
quo, then they would escalate to de-escalate and use nuclear 
weapons. That's where the Russian strategy leads you.
    Dr. Payne. Can I mention that President Putin has said that 
he can have Russian troops in five NATO capitals in two days? I 
don't know whether Russia plans to do that, but if President 
Putin believes that, that can be the type of mistake that--that 
Frank mentioned--that could lead to, you know, a disaster, even 
though we, on our side, believe that it would be disastrous for 
them to move in that direction.
    Senator Donnelly. Thank you very much.
    Senator Sessions. On the China border, is the opposite the 
case, where the Russians are less able to resist the--a Chinese 
advance, and therefore, they would even be more committed to a 
scalpel or a nuclear weapon?
    Mr. Miller?
    Mr. Miller. Yes, sir.
    Senator Sessions. Let's see. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Senator Sessions. Thank you. I heard your--I heard Omaha 
being mentioned on the football game the other day a lot.
    Senator Fischer. I know. We always make the news. 
Nebraska's always the leader.
    [Laughter.]
    Senator Sessions. Your Mr. Manning----
    Senator Fischer. Thank you.
    Senator Sessions.--quarterback Manning----
    Senator Fischer. I know. Peyton Manning----
    Senator Sessions.--keeps calling your name.
    Senator Fischer. He was----
    Senator Sessions. I've thought about you.
    Senator Fischer. He was just the best. That helped him--and 
that helped him to win, when he yells out ``Omaha.''
    Dr. Harvey, in your earlier statement, you referenced then-
President Bush, in 1991, in some actions that he had taken. At 
that time, he unilaterally eliminated, I think, almost all the 
deployed tactical weapons--tactical nuclear weapons that we 
had. Did he expect the Russians to follow suit on that? Because 
they did not. Did he expect that to happen?
    Dr. Harvey. There was, I believe, the expectation--while 
the--President Bush's--President Bush 1's tactical nuclear 
reductions were unilateral--that there were be some 
reciprocity. There was some reciprocity, but some of the 
Russian promises on reciprocity have not been fulfilled.
    Mr. Miller. Senator----
    Senator Fischer. And as we look at our--as----
    Mr. Miller. Senator, I was one of the architects of that. 
Yes, the--President Bush made a speech, in late September 1991, 
where he announced what we were going to do, and it 
specifically challenged the Russian leadership to do the same 
thing. President Gorbachev, in 1991, and President Yeltsin, in 
1992, committed themselves to do virtually everything that 
President Bush announced for our forces. But, as Dr. Harvey 
indicated, they--and you've said--they failed to carry out 
their pledge.
    Senator Fischer. And today, we're faced with the tactical 
nuclear weapons that the Russians have. And I think that line 
is blurring between the tactical nuclear weapons and the 
strategic nuclear weapons. How do you feel that we're going to 
be impacted by that, especially with the Russians making a 
number of advancements with their tactical nuclear weapons? How 
does--how's that going to affect our nuclear posture in the 
future? If you would all like to address, specifically, the 
Russians, but also dealing with other nuclear powers that we 
are looking at in his world, whether it's the Chinese or North 
Korea, or looking down the road in the future to even Iran. 
How's that going to affect our deterrence?
    Dr. Roberts. So, let me start, if I may, with the Russia 
piece. So, NATO's nuclear posture consists of two main 
elements: the independent nuclear forces of the three nuclear 
allies within the alliance; and the nuclear sharing 
arrangements, which have steadily come down, and we can say at 
the unclassified level, to 97 percent from their Cold War 
height, the number of deployed weapons by the United States in 
support of the nuclear assuring arrangements. So, the question 
for NATO is how to adopt that posture to the new situation 
presented by Russia and to its new capabilities.
    The key development in Russian military doctrine is this 
elaboration of the escalate-to-de-escalate strategy and the 
footnote to that, which is, they recognize that that may not be 
effective in achieving the result they would like, so they've 
introduced a vocabulary now about pre-nuclear deterrence, the 
use of long-range non-nuclear strike systems, whether cruise 
missiles or ballistic missiles, that would be used to escalate 
a conflict in order to de-escalate it, but below the nuclear 
threshold. We need to strip away their confidence that those 
threats are going to be effective in inducing NATO's restraint. 
We can do that with a little bit of missile defense, a little 
bit of non-nuclear strike of our own, and an ability to 
retaliate if they conduct limited nuclear strikes, which we 
have with our DCA arrangements, and an ability to escalate if 
they continue with nuclear strikes, which we have with our 
strategic national assets of the three countries.
    So, this is--I don't see the Russians solving a significant 
military problem for themselves by producing low-yield nuclear 
weapons. If they use nuclear weapons, they will have crossed a 
dramatic threshold. And the fact that they have certain yields 
and certain downrange hazards will not be terribly impressing 
upon the alliance of the need to do something decisive in 
response to impress upon Russia the degree of its 
miscalculation.
    Now, the key wildcard here is where they go with INF 
[Intermediate-Range Nuclear Forces Treaty]. If they--if their 
violation of the treaty proceeds now to the deployment of some 
significant force of intermediate-range nuclear weapons, then I 
think the problem for the NATO alliance becomes more complex. 
And in that circumstance, I am not sure that the existing DCA 
arrangements would be adequate to signal the resolve of the 
alliance, when threatened.
    So, with that, I'll set us--turn to others for the 
additional comments.
    Dr. Payne. I'll be happy to comment.
    Senator Fischer. Dr. Payne.
    Dr. Payne. And that is--it--the question isn't just how the 
Russian nuclear weapons impact what we may or may not do; it's 
how the Russian combined arms, conventional and nuclear 
weapons, impact what we may or may not do. And let me just give 
you an example. Defense Minister Shoygu just announced that 
Russia was going to establish three new divisions in the 
western district opposite NATO with permanent basing and that 
Russia was going to move the S-400 to Kaliningrad. What this 
suggests is a very serious buildup of conventional capability 
in the western districts. We shouldn't be surprised by that, I 
guess, given what they're saying, but it's actually happening.
    So, you know, what does that mean? It means that NATO needs 
to be able to prevent conventional fait accompli by Russia, 
because we can't allow President Putin or the Russian elite to 
believe that they can have Russian troops in five NATO capitals 
in two days. And that's----
    Senator Fischer. They've--but, they've shown to us that 
they can move their forces quickly.
    Dr. Payne. That's true. And that's--and so, what I'm 
suggesting is, this is something that NATO needs to respond to. 
We need to make sure that Russian cannot----
    Senator Fischer. But, do we----
    Dr. Payne.--produce these fait accompli----
    Senator Fischer.--do we respond with a--nuclear deterrents? 
That's--you know, that's my question.
    Dr. Payne. Right.
    Senator Fischer. What is our posture going to be, going 
forward, with regards to deterrence when you're--not just the 
conventional weapons that they have, but also--and not just 
Russia--but with their tactical?
    Dr. Payne. Yes, Senator Fischer. I think it's a two-pronged 
approach. We have to be able to deter the conventional 
assault--the Russian troops in five NATO capitals in 2 days. 
And helping to counter that vision of the Russians is 
important. And conventional forces are necessary for that; not 
just on a rotational basis, but having conventional forces that 
can help prevent that will help deter that. We also need to be 
able to deter the nuclear escalation threat. So, we need to be 
able to do both. And that's where I believe there is a role for 
NATO and U.S. nuclear weapons to deter that notion that nuclear 
escalation will save the day for them.
    Now, what does that mean for us when you look at the 
basics? Where does the rubber meet the road? It means that we 
can't remove the DCA from Europe. That would be ridiculous at 
this point. But, there have been many, many suggestions that 
the United States DCA should be removed from Europe. We should 
go ahead. We must go ahead with the B61-12 for the DCA. We need 
to maintain our deterrent that can help prevent the Russians 
from thinking they can nuclear escalate their way out of a 
problem that they create by trying to put Russia troops in five 
NATO capitals in 2 days. So, it's a two-pronged deterrence 
approach.
    Mr. Miller. Could I just be--very brief, say--we have two 
problems. One, Putin's rebuilt Russia's nuclear and 
conventional forces. And two, he's shown a propensity to use 
those conventional forces in Georgia and Ukraine when he 
thought there was low risk. Our job, as the United States, and 
our job, as to NATO, is to say to him, ``There is an extreme 
risk in using those forces of any kind against the alliance.'' 
And that means building up some conventional capability in 
Europe, and it means retaining a good, credible nuclear 
deterrent, which means modernizing our forces. If he is 
convinced there will be cost to potential aggression, he's not 
going there. But, at no cost, he could.
    Senator Fischer. Will it take the United States to be the 
leader on that, to bring in all of the NATO partners that we 
have so that they understand the importance of having a line of 
defense with Russia? They have a big border now to protect----
    Mr. Miller. We are the----
    Senator Fischer.--whether it's in the south, and the issues 
they face there, but--how do you convince, I think, especially 
Western European countries of the importance of having that 
firm border on the east?
    Mr. Miller. We are the leaders of the alliance. Without us, 
there is no NATO alliance. And it makes hard work. I chaired 
NATO's Nuclear Policy Committee for 4 years. You can do that. 
You can bring those countries along. But, it takes hard work. 
Brad knows that. My other colleagues know that, as well. We 
have to lead, and we have to be prepared to take that burden 
on.
    Senator Fischer. And, Mr. Chairman, I am way over my time, 
but can I have Dr. Harvey respond?
    Senator Sessions. Important.
    Senator Fischer. Since I used your name at the beginning, 
sir.
    Dr. Harvey. I think it's important that we recall that, 
back in the 1950s and the 1960s, when Russia had a massive 
conventional strength on the western--on the--confronting the 
western alliance, that we declared that we would use nuclear 
weapons first to repel conventional aggression. We want to get 
beyond that. We need to have our capabilities in place to deter 
conventional attack with conventional forces. And that 
involves, very likely, restoring some military capability from 
the United States to the alliance, and figuring out ways to 
exploit technology better, via offset strategies, et cetera, to 
be able to achieve military objectives, not necessarily with 
stationing massive armored divisions forward, but with 
technology.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    It seems to me there's a real dilemma at the core of this 
discussion, and that is, How do we increase our deterrence in 
Europe with a NATO deterrent without at the same time feeding 
Putin's paranoia about aggression from the West? There's a kind 
of--it's not really chicken-and-egg; I think it's a downward 
spiral, it seems to me.
    Mr. Miller, would you comment on that? Because clearly part 
of what motivates Putin is a 500-year-old Russian belief that 
the West is out to get them.
    Mr. Miller. I think he is motivated by that, Senator King, 
but I also think that he and his military experts are quite 
aware of what our capabilities are and are not. The movement of 
a United States Brigade Combat Team to the Baltics, and 
actually parceled out among those countries, is clearly not an 
offensive threat. I don't--I think he and his military are 
quite clear that NATO cannot, and does not, present an 
offensive threat to Russia. But, as you say, it feeds the 
paranoia, and it helps him in his general political approach to 
dominance and eliminating opposition in Russia.
    Senator King. How much of this new-found Russian 
aggressiveness, if you will, is Putin himself, as an 
individual, and how much is Russian doctrinal structural 
thinking?
    Dr. Harvey, you want to take a crack at that?
    I realize--we spend a lot of time around here 
psychoanalyzing Mr. Putin, so we may as well do it a bit more.
    Dr. Harvey. If my wife were here, who--she is a Russia 
specialist. She's a--an expert on the Putin stuff. But, I'm 
going to turn this over to Keith. I think he can handle this 
one better.
    Dr. Payne. Thanks, John.
    We make a mistake if we personalize this to President 
Putin----
    Senator King. Right.
    Dr. Payne.--because most of what we hear and see, and the 
kind of things that the--come out in the--particularly the open 
press with regard to the topic that we've been discussing today 
go back to 1999-2000. We see military leaders making statements 
that are, as I said earlier in my prepared remarks, preemptive 
use of nuclear weapons in conventional conflict. So, it's much 
more of a culture and a regime position than it is narrowly 
personalized President Putin. My strong belief is, if President 
Putin for some reason were no longer on the scene----
    Senator King. We'd still be dealing with this.
    Dr. Payne.--we'd still be dealing with this, yes, sir.
    Senator King. That's important. That was the thrust of my 
question.
    Let me change the subject entirely, because we've been 
talking about Russia most of the time. Very specific question, 
briefly. How vulnerable are we, in terms of command and 
control, to cyberattack? We can have all the weapons in the 
world, but if we can't communicate because of a--some--a 
cyberattack of some nature--and, to the extent, in an 
unclassified setting, you can share your thoughts.
    Dr. Harvey. I spent quite a bit of time worrying about this 
when I was working with Ash and others in the Department of 
Defense. Before he became Secretary and Deputy Secretary, he 
led a crusade within the Department to strengthen the command 
and control of nuclear forces. One of the key elements of the 
command and control of nuclear force is ensuring a cyber 
integrity of the system. We have an old system.
    Senator King. That may be good.
    Dr. Harvey. That may be good, to some degree. We're 
thinking of--we have to modernize it. Part of Ash's initiatives 
was to introduce a complete comprehensive, ongoing cyber 
assessment of the command-and-control system. And we're 
starting off with the ICBM force, and we're moving through the 
whole system. I am not currently current with that cyber 
vulnerability assessment. But, it's something I worry quite a 
bit about. And it's important that we devote the right 
attention to ensuring that we can get a conference set up with 
the President, we aren't fooled into believing that the attack 
is underway, when it really isn't--when it isn't--or that it 
isn't underway when it really is. We need to ensure that we can 
communicate with our forces, and that no one can disrupt those 
communications.
    Senator King. Well, I'm glad to know that work is ongoing, 
and I hope it has a sense of urgency.
    Mr.--Dr. Roberts.
    Dr. Roberts. I had a comment on that. We have a command-
and-control system tailored for the problem of the 1960s and--
--
    Senator King. That's reassuring.
    Dr. Roberts.--which is essentially--in plain speak, it 
enables the President to take a 5-minute multiple-choice quiz 
and then skedaddle, which fit a world in which we worried 
seriously about the possibility of a major bolt-out-of-the-blue 
Soviet strike.
    If that's the path--if that's no longer the pathway to 
nuclear war, what might be? Well, the case that concerns all of 
us around the table, I think, is regional aggression, a 
regional conflict, where the adversary tries to escalate its 
way out of a failed act. And thus, the first decision the 
United States encounters about employing a nuclear weapon isn't 
in the bolt-out-of-the-blue context. And, if you will, if the 
system is geared to enable the President to take a multiple-
choice quiz in 5 minutes, what he needs to be able to do is to 
take--pass the essay test. Imagine a Korean contingency in 
which North Korea has crossed a red line of ours. We face a 
decision about whether and how to respond with a nuclear 
weapon. Who's the President going to want to talk to? And--
many, many, many people.
    Senator King. Right.
    Dr. Roberts. And is the system geared to do that? Well, 
that's not quite the nuclear command and control system, but 
it's a part of the new landscape we're in. And moreover, if 
we're entering the phase of nuclear decision after some period 
of prolonged conventional regional war, we can expect that 
cyber and space assets both would already have been under 
attack. And thus, we might be entering the nuclear phase of a 
conflict with a weaker command-and-control system than has been 
our assumption when we think that the problem is the bolt-out-
of-the-blue.
    So, there's an excellent question about the cyber 
vulnerability of the command-and-control system, but there's a 
related question about whether the system, as it was conceived 
and constructed for the problem of the past, how it needs to 
evolve to be effective for the problem that's emerging in front 
of us.
    Senator Sessions. Senator----
    Senator King. Mr. Chairman, may I follow up with one 
additional question?
    Mr. Miller. And you've got--could I just say--command and 
control, while vital, has always been an afterthought. We have 
to modernize the triad and OES----
    Senator King. Right.
    Mr. Miller.--nuclear command and control, too. I would 
recommend to the committee that it engage in looking at that 
over the next year. This is a critical element of our--it is 
the most critical element of our force structure.
    Senator Sessions. The command and control----
    Mr. Miller. Yes, sir. Nuclear command and control.
    Senator King. I wanted to ask one additional question. It 
may be that you could answer very briefly and give us some 
thoughts on the record.
    Again, to change the subject utterly. We've been talking 
about Russia, then we've been talking about escalation, North 
Korea. What about terrorists? How--deterrence doesn't work 
against a suicidal nonstate actor. The whole theory just breaks 
down. Do we need a--I mean, how do we deal with that? We've--
deterrence has been very effective, a tremendously effective 
doctrine for 70 years, but now we're in an entirely different 
situation, where if somebody doesn't care about dying and they 
don't represent a country--how do--what's the strategic 
doctrine that deals with that threat?
    Dr. Harvey. I would make one point. First of all, we can 
deter the sale or transfer of nuclear weapons from states to 
terrorists by making it clear to states that we hold them 
accountable for those transfers; and, two, that we have the 
capabilities to know whose nuclear weapon just went off and 
where it came from. And that's an important critical aspect of 
deterrence in the concept of terrorism.
    Senator King. Is that a well-known concept in the world 
today? People--other countries know that that's our----
    Dr. Harvey. We have fairly robust nuclear forensics 
capabilities to be able to determine, if we acquire a nuclear 
weapon from a--that--where it came from, and, number two, if 
one goes off, also be able to understand, through debris 
analysis, where it came from. And that's pretty well 
understood. I think the point of--once the terrorists get the 
bomb, yeah, you're right, they're going to want to use it, and 
they're not going to care if they give up their lives to use 
it. And our job has to be able to create barriers and delay 
mechanisms to convince them they will not be able to achieve 
their objective, which is to kill a lot of Americans or a lot 
of allies.
    Senator Sessions. Senator Cotton, thank you for joining us.
    Senator Cotton. Well, thank you for the invitation. I don't 
sit on the subcommittee, but I believe that, while there may be 
more immediate threats to our national security, there's no 
more fundamental issue for the safety and security of the 
American people than our nuclear forces.
    I'm occasionally asked by those on the left, as well as--
who pose nuclear weapons--and those on the right, who look for 
places to trim spending, ``Why do we spend so much on weapons 
we never use?'' My answer, first, ``On the contrary, we use our 
nuclear weapons every single day.'' And, second, ``We actually 
don't spend that much on our nuclear weapons.'' I think it's 
less than 5 percent now of the total defense budget. That is a 
very valuable investment.
    To that end, when was the last time the United States 
designed a nuclear bomb?
    Dr. Harvey. The last full-up nuclear weapons--nuclear 
warhead that we designed was the W88 SLBM warhead for the 
Trident ballistic missiles carried on submarines. And that was 
in the 1980s.
    Senator Cotton. When was the last time we built a nuclear 
warhead--a new nuclear warhead?
    Dr. Harvey. It was the W88, probably--we were producing 
them through the late 1980s into the early 1990s, when 
President George Herbert Walker Bush stopped the production.
    Senator Cotton. It is the current policy of the United 
States Government not to develop new nuclear warheads or pursue 
new military missions for nuclear weapons. Should that remain 
the policy of the United States?
    Dr. Harvey. That policy should be reviewed in every 
administration. This administration, early on, made a decision, 
in light of the difficult efforts underway to sustain the 
existing stockpile, not to go off and develop new warheads or 
new--new nuclear warheads and for nonproliferation objectives. 
It was not a decision, for all time, not to consider the 
possibility of having new or different military capabilities in 
the force. And every Nuclear Posture Review should revisit that 
decision. Indeed, all Presidents, including this one, has said 
we need to maintain the capabilities to ensure that we can 
develop new or different warheads for providing different 
military capabilities, if required from an evolving security 
environment.
    Senator Cotton. Mr. Miller, I saw you nodding your head?
    Mr. Miller. Senator, I--I was not in the administration, 
was not a part of this administration, but the intent of that 
policy, as I understand it, as the intent of the Prague speech, 
was to set an example for others not to either rely more on 
nuclear weapons or build new nuclear weapons. The French, the 
Russians, the Chinese, the Indians, the Pakistanis, and the 
North Koreans are building new nuclear weapons. If the intent 
of our policy of self-restraint was to stop them from doing so, 
that policy has failed. To the degree that our stockpile 
requires new capabilities, then I think we ought to examine 
that.
    Senator Cotton. Let's move from warheads and general policy 
to delivery systems and immediate policy. I have seen several 
reports, both in the media and in conversations, that the long-
range standoff cruise missile may not be fully funded in the 
President's upcoming budget request. Senior civilian and 
military DOD officials insist that this is absolutely 
necessary.
    Mr. Miller, would you like to explain why they have reached 
that conclusion?
    Mr. Miller. Yes, sir. The bomber leg of our triad consists 
of 19 B-2 bombers and about 50-odd B-52s. The only way the B-52 
is an effective deterrent is by carrying a cruise missile. The 
cruise missile that it carries now, the AGM-86 ALCM, first 
entered the force in about 1980-1981. It's got reliability 
problems. And whereas it was stealthy then, it is no longer 
stealthy today. So, if you don't have the long-range standoff 
weapon, you don't have the B-52, and, by extension, you really 
don't have a triad anymore.
    Senator Cotton. Thank you.
    Dr. Payne, do you have anything to add on that question?
    Dr. Payne. I would just add, as a--at a general level, that 
the more flexible our capabilities are, the more diverse they 
are, the more likely it is that we'll have what's necessary for 
deterrence when it becomes extremely important to have an 
effective deterrent. And so, the continuing reduction and 
narrowing of our capabilities, I believe, has a adverse effect 
of narrowing the potential that we will have what's needed for 
deterrence when that crisis comes. And so, I think that the 
cruise missile is extremely important, for the reasons that 
Frank mentioned, but also in general, because we need to retain 
a flexible, diverse force structure for deterrence purposes.
    Senator Cotton. And my time is expired, here, but if I 
could just conclude, Senator Sessions, with----
    Senator Sessions. Yeah.
    Senator Cotton.--one comment, since you and Senator King 
had a conversation about Vladimir Putin and his intentions, and 
divining those intentions.
    Operations by Russia began in earnest in Syria in late 
September. They continued unabated to include several 
violations of Turkish airspace, 'til Turkey shot down a Russian 
aircraft in its airspace in late November. To my knowledge, 
since then, Russia has not had any incursions into Turkish 
airspace.
    What do you think that tells us about Vladimir Putin's 
response to countries or adversaries that draw a line on his 
aggressive conduct?
    Dr. Payne. I think it--what it shows is that Vladimir Putin 
is a calculating person. He has a chance to be reckless, but, 
when he sees that being reckless really will have very negative 
consequences, he can also pull back. That's why, in our 
discussion today, our goal is to make sure that he doesn't make 
a mistake and act on some of the more reckless ideas that seem 
to be part of what that regime is talking about.
    Senator Cotton. Well, I would agree with that. And I would 
add, for the record to that conversation about Russia, that 500 
years of Russian history shows that it's actually the West that 
has more to fear from Russian aggression than Russia from the 
West. The two main times they've faced a threat from the West, 
from Napoleon's France and Hitler's Germany, it was the West 
that united against that invader and on the side of Russia. And 
if you ask Sweden or Poland or the liberal uprisings of the 
19th century where they had the most fear from, it was from 
Russia; it was not from anyone in the West.
    Senator Sessions. Thank you.
    Well, Dr. Payne, just follow up a little bit on that and--
because we really need to get your opinion on the necessity, or 
not, of a new nuclear weapon. What I hear you saying is, in 
this world of calculation by powers, that if Russia or some 
other nuclear state is calculating that they can take--use a 
small-yield--some sort of small-yield nuclear weapon, and they 
calculate we won't retaliate, they are more likely to use that 
weapon. Is that--first--that's the first question. If they 
think we won't retaliate, they're more likely to use it than if 
they are certain we would retaliate.
    Dr. Payne. If they think that they have license to do that, 
then they're more likely to move in that direction.
    Senator Sessions. And if, to follow up, the flexibility 
you're talking about in--if you only have, you know, a 
nonsurgical-type response capability, then they might increase 
their belief that you're not going to--you don't have the right 
kind of weapon to respond, and might, again, cause them to 
more--be more willing to use a nuclear weapon. Is that--I guess 
I'm--you can probably see where I'm going.
    Dr. Payne. Sure.
    Senator Sessions. So, the question is----
    Senator Donnelly. And if I could just add to that. And this 
is--I don't want to go into any classified areas--but, don't we 
have the ability to work with our weapons to match what they 
do?
    Senator Sessions. And so, the question--we'll get there. 
The deal, to me, is--and we don't talk about it much--but, we 
must have a realistic ability to respond, and our adversaries 
need to know it. And we don't--that--and we don't need to be 
put in a position where we've got to pour troops in, and they 
be vulnerable to a nuclear attack. There's a--so, how do you 
evaluate that, in terms of the kind of flexibility we need----
    Dr. Payne. Right.
    Senator Sessions.--in our system?
    Dr. Payne. Yes, sir. I think you have hit the key question. 
And my basic answer is, we need to fill the gap that the 
Russians seem to see in our capabilities. What that gap is 
seems to be at the low end of the spectrum, low-yield nuclear 
weapons, very accurate nuclear weapons. Now, whether that means 
we need a new capability, or not--I hate to be an academic, but 
it depends on how you define ``new.'' If I heard my colleague, 
Dr. Harvey, talk about ``new'' as something that would be 
outside or beyond designs--existing designs. And it may well be 
that----
    Dr. Harvey. Qualified in nuclear tests.
    Dr. Payne. Exactly. So, if the designs that we have, 
qualified via previous nuclear tests, are as broad as I 
understand them to be, then we may not need new nuclear 
capabilities. We may need something that's outside of the 
current stockpile, but it's not a new nuclear capability. But, 
the first thing we need to do--and this is where I get back to 
the point that Frank made earlier--is that we need to 
understand what the Russians are doing and saying, and what 
their views are, before we deem what we need for deterrence. In 
other words, we need to understand them first, because what we 
have has to impress them. It doesn't just have to impress us; 
it has to impress them. So, we need to fill a gap we see.
    Senator Donnelly. And isn't one of the other things we need 
to do to send a clear message, through one way or another, that 
any use of any weapon is--will clearly be countered immediately 
the same way?
    Dr. Roberts. So, easier said than done.
    Senator Donnelly. No, I get that, too. But, I mean----
    Dr. Roberts. You're passing through the filter of all of 
their perceptions about the credibility of that threat.
    Senator Donnelly. And it really comes down to a Clint 
Eastwood moment of, ``Do you feel lucky? Do you think we're not 
going to act?"
    Dr. Roberts. Right.
    Senator Donnelly. And----
    Dr. Roberts. And what we----
    Senator Donnelly.--our job is to ensure that they look at 
the weight of evidence, and the evidence is that we will, I 
guess.
    Dr. Roberts. Yes. And that we make it difficult for them to 
calculate precisely what risk they're going to run. Putin's 
shown himself to be an astute player of low-stakes poker. He's 
gone up against us everywhere that our stake hasn't been 
anywhere near what his stake is. That's low-stakes poker. Going 
up against NATO would be high-stakes poker. And we need to do 
everything within our realm to demonstrate our conviction, our, 
just, belief, that that would be so. I'm not sure that new 
declaratory policy statements, new threats to Russia, new red 
lines in the sand would have any impact on a man who's, by and 
large, made up his mind about our strategic behaviors and our 
strategic personality. But, to the extent we can expose him to 
risks that he can't calculate, costs that are higher than he 
might have expected to pay, and--while at the same time 
reducing his expected benefits out of threatening and attacking 
NATO and trying to pull it apart, then we make it more and more 
difficult for him to convince himself that he can run these 
risks and win.
    So, I think the nuclear tool in the toolkit is fundamental, 
but it's a much broader toolkit, and it begins with how we 
convey the role of deterrence in the alliance's overall 
strategy, and how we convey our intent to defend the vital 
interests of our allies.
    And just to sort of close with a comment on the quotation 
you had, Senator Sessions, from President Obama in Seoul. What 
was missing from the quotation, which--was what he then went on 
to say, which was, ``But, we want North Korea to make no 
mistake that the United States would use nuclear weapons on 
behalf of South Korea when its vital interests are at risk.'' 
That's the message that they need to hear. And they need to 
hear it from everybody in our political system, not just the 
Commander in Chief.
    Mr. Miller. If I could, sir, since I'm the one who said we 
ought to say something in our declaratory policy. Nothing in 
isolation makes sense. It's a combination of what we say, how 
we exercise, how we lead in NATO, and how we modernize our 
forces. Way back in the bad old days, they used to--we used to 
say, ``We know we can't win a nuclear war. Our job is to 
convince the Soviet leadership that they can't win, either.'' 
It's words like that. It's leadership. It's modernization. And 
it's working with our allies to make clear to everybody that an 
attack on one is an attack on all, and that it's high stakes.
    Senator Donnelly. It's the entire picture that you paint.
    Mr. Miller. Yes, sir.
    Dr. Roberts. May I come back to the, ``Do we need new?'' 
question?
    Senator Sessions. Right.
    Dr. Roberts. Since this is clearly----
    Senator Sessions. You indicated previously you didn't think 
so. And so, modernization, you favor. Is that correct, Dr. 
Roberts?
    Dr. Roberts. Absolutely.
    Senator Sessions. All right. So, go ahead.
    Dr. Roberts. This is a case where the best may be the enemy 
of the good, which is to say if--if we were to set out today 
and to define the optimal nuclear arsenal for the security 
environment we sit in, in 2016, it would probably look somewhat 
different from the arsenal we have. But, do we know that 
anything is different politically from the circumstance of the 
George W. Bush administration, when executive-legislative 
agreement was not possible on even replacement warheads? I'm 
worried about the circumstance in which we go off and say, 
``We're not sure that a new capacity is really going to just 
solve this problem us, but it seems like it's the right thing 
to do,'' and watching the political support for life extension 
programs evaporate. Then we end up in a worst-possible world.
    So, there's a pragmatic political question, here, it seems 
to me, about whether or not going for new is an attractive 
option. But, you're not asking the political question, you're 
asking the military strategic question, ``Does this enhance, in 
a fundamental way, in a--or a significant way, the nuclear 
toolkit we already have in place?'' And I go back to my 
starting point. Is there a military commander who has said 
there is some deficiency in our ability to do what's--guidance 
calls for, which is to put at risk those things that we believe 
enemy leadership values? It's not simply to destroy enemy 
societies. It's to do something much more complex. We don't see 
evidence--I mean, no military leader has come forward and said 
there is an unmet requirement.
    So, the question then is, well, from a deterrence 
perspective, as opposed to a warfighting perspective, might 
there be some benefit? And you set out the case, but, if I may 
observe, with a series of ``mights.'' Putin ``might'' think we 
might--he might interpret this, he might think that. It seems 
logical to us that he ought to be more impressed by the threat 
to employ a lower-yield weapon than a higher-yield weapon. But, 
I don't think we should join Mr. Putin in trying to reduce the 
nuclear threshold to the lowest possible level with the lowest-
yield nuclear scalpels. We want it to be clear. Nuclear weapons 
are brutish. They're meant to be different, ``You--if you cross 
this line, we're not going to mess around with trying to match 
you, scalpel for scalpel. You've changed the conflict, and 
you've changed our stake, with crossing the nuclear 
threshold.''
    So, I don't see a deterrence rationale that's strong and 
credible for going for new. There you have it.
    Senator Sessions. Thank you.
    Dr. Harvey. Could I elaborate on that one point?
    Senator Sessions. Caused us all to think.
    Who else would like to comment on that?
    Dr. Harvey. I'd like to comment on the point that----
    Senator Sessions. Dr. Harvey.
    Dr. Harvey.--Senator Donnelly made. And I--it reinforces, I 
think, Frank's comment--is that--I personally am not optimistic 
that a--that you can manage escalation once nuclear weapons are 
used. That's my view. And I believe that's our--that's the view 
of many in the United States. I'm not sure that's Mr. Putin's 
view. And that's the question. How do I convince him that he--
he may think he can manage escalation. So, what do I need to do 
to convince him that he--that should introduce doubt in his 
mind about that? And what that means to me is, we've got to 
think about that, and that's what--exactly what the next 
Nuclear Posture Review--and we shouldn't necessarily foreclose 
any option until we understand what we think we need.
    Senator Sessions. Dr. Payne--and before we get into it, I 
would just say: Carrying through on a thorough effective 
modernization would be a modest step in that direction, would 
it not, Dr. Roberts?
    Dr. Roberts. More than modest, I think.
    Senator Sessions. Dr. Payne?
    Dr. Payne. I just want to add that I agree with Brad's 
point--I think we all do--that we don't want to mimic what the 
Russians are doing for the sake of mimicking the Russians. I 
don't know that there's any value in that at all. The question 
is, what do we need to do to shut down the Russian strategy? 
Because that we do need to do, and we all agree that we need to 
shut down this Russian strategy. And so, the question isn't 
mimicking the Russians; it's, Is there a gap that we can fill 
that will contribute to shutting down the Russian strategy? You 
know, I don't know that something new is necessary to do that, 
if we define ``new'' the way Dr. Harvey rightly, I think, 
defined it. I don't know that something new is necessary for 
that. At the same time, I don't think we should come in and, a 
priori, say we're not going to do anything new. I mean, we 
should be able to take a good look, and try and understand, 
What is it that the Russians are doing? What's their strategy 
based on? And what does it take to fill whatever gap they see, 
when we understand what that gap is? And we're just at the 
nursery slopes of doing that, frankly.
    Senator Sessions. Senator King?
    Senator King. I would argue, taking off from that point, is 
that the development of the new standoff cruise missile isn't 
new. It's simply a making the--that arm of the triad effective, 
based upon current realities. You all would agree?
    [All three witnesses nodded in agreement.]
    Senator King. Okay.
    Again, change the subject a bit. It appears that the 
Russians violated the INF Treaty. Is the INF Treaty still in 
our best interests? Should we move on beyond it? Should we take 
their--should--how do we respond? And do we respond possibly by 
simply saying we're no longer going to abide by it, either?
    Mr. Miller. I think that this--we're right back into, ``We 
don't want to mimic what the Russians are doing.'' The Treaty 
is of value if the Russians--if the Russians abide by it. 
They've broken the Treaty. We need to work to try to get them 
back into compliance with it. But, on the assumption that they 
don't, then we ought not maintain the fiction that the Treaty, 
in fact, is governing both sides, that it's a--they've made it 
a dead letter. That said, given that introducing new 
groundbased weapons into NATO is always a neuralgic issue, has 
been from the very beginning of the alliance, I would not try 
to match what the Russians are doing with a similar kind of 
weapon system. I'd try to use our intelligence and our brains 
to figure out a new way of offsetting that capability, should 
we decide that's necessary for deterrence. And my own 
inclination would be to go back to some sort of a submarine-
launched cruise missile.
    Senator King. Dr. Roberts?
    Dr. Roberts. Recalling my case, in my opening statement, 
about the importance of Asia to this discussion, if we had the 
opportunity to produce intermediate-range, conventionally-armed 
ballistic missiles, this would be a useful response to China's 
anti-access area denial strategies, and a--an important tool in 
the assurance of our allies, and also avoiding a potential 
difficulty among our allies as South Korea pursues theater-
range ballistic conventionally-armed missiles of its own, thus 
inciting some Japanese interest in the same.
    So, if the INF Treaty were to no longer be binding on the 
United States, there might be certain advantages to derive for 
our interests in the Asian security environment.
    Senator King. Thank you, Mr. Chairman. This has been a very 
valuable hearing. I appreciate you.
    Senator Sessions. We're lucky to have such a wise panel.
    Senator Donnelly, anything further?
    Senator Donnelly. No. Their wisdom has exceeded my ability 
to absorb it.
    [Laughter.]
    Senator Sessions. That is a ditto here.
    Thank you all for your comments. And I think we've all 
gotten a sense of--we need to get this right. We don't need to 
blunder in short-term thinking and make some errors that might 
have ripple effects that we don't foresee today.
    Thank you all.
    We are adjourned.
    [Whereupon, at 4:18 p.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
